No. 			
In the

Supreme Court of the United States
ANTON SHIFCHIK, ZHANNA SHIFCHIK,
AND SLAVA SHIFCHIK,
Petitioners,
v.
WYNDHAM WORLDWIDE CORP., WYNDHAM
WORLDWIDE OPERATIONS, INC., WYNDHAM
HOTEL GROUP, LLC, WYNDHAM HOTEL AND
RESORTS, LLC, WYNDHAM VACATION RESORTS,
INC., WYNDHAM VACATION OWNERSHIP INC.,
EAST PASS INVESTORS, LLC, HARBOR WALK
HOLDING, LLC, AND EMERALD GRANDE LLC,
Respondents.
On Petition for a Writ of Certiorari to the Superior
Court of New Jersey, A ppellate Division

PETITION FOR A WRIT OF CERTIORARI
Bruce H. Nagel
Counsel of Record
Nagel Rice LLP
103 Eisenhower Parkway
Roseland, NJ 07068
(973) 618-0400
bnagel@nagelrice.com
Attorneys for Petitioners
305165

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
Internet reser vations are the lifeblood of the
hospitality industry. Like many global businesses that
heavily rely upon the internet to conduct business,
respondents have elected to avail themselves of the
commercial benefits that are available in every state in
this country. This Court has never directly addressed
what role internet commerce plays in determining the
personal jurisdiction of foreign corporations with a global
reach, stating not long ago that “[w]e leave questions about
virtual contacts for another day.” Walden v. Fiore, 571
U.S. 277, 290 n.9 (2014). Recently, in Ford Motor Co. v.
Mont. Eighth Judicial Dist., 141 S. Ct. 1017 (2021), three
Justices signaled that the day has come, questioning
the continued effectiveness of the distinction between
general and specific personal jurisdiction developed in
International Shoe Co. v. Washington, 326 U.S. 310 (1945)
and its progeny. As Justice Alito stated “there are []
reasons to wonder whether the case law we have developed
since [International Shoe] is well suited for the way in
which business is now conducted.” Ford Motor Co., 141 S.
Ct. at 1032 (Alito, J., concurring in the judgment). Justice
Gorsuch also questioned the continuing validity of this
distinction, asserting that it “ha[s] begun to look a little
battered.” Id. at 1034 (Gorsuch, J., with whom Thomas,
J., joined, concurring in the judgment). Alternatively,
should this Court not address the continued viability of
International Shoe in the context of internet commerce,
it should grant certiorari and remand this matter in light
of Ford Motor Co.
The questions presented are:
1. Whether it is consistent with the Due Process
Clause of the Fourteenth Amendment for a state to

ii
exercise personal jurisdiction over a foreign corporation
based solely on its virtual contacts with that state.
2. Where the New Jersey Appellate Division ruled
that defendants were not subject to specific personal
jurisdiction in the absence of a “but for” causal relationship
between defendants’ contacts with New Jersey and
plaintiff’s injuries, whether this Court should grant
certiorari, vacate the judgment of the New Jersey
Appellate Division, and remand the case in light of its
recent decision in Ford Motor Co. v. Mont. Eighth Judicial
Dist., 141 S. Ct. 1017, 1026 (2021), where it ruled that
“[n]one of our precedents has suggested that only a strict
causal relationship between the defendant’s in-state
activity and the litigation will do.”

iii
LIST OF PARTIES
The following list provides the names of all the parties
to the proceeding below:
Petitioners Anton Shifchik, Zhanna Shifchik, and
Slava Shifchik were named plaintiffs in the trial court
proceedings, and appellants in the proceedings before
the New Jersey Appellate Division and the New Jersey
Supreme Court.
Respondents East Pass Investors, LLC, Harbor Walk
Holding, LLC, and Emerald Grande LLC were named
defendants in the trial court proceedings, respondents and
cross-appellants in the proceedings before the New Jersey
Appellate Division, and respondents in the proceedings
before the New Jersey Supreme Court.
Respondents Wyndham Worldwide Corp.1, Wyndham
Worldwide Operations, Inc., Wyndham Hotel Group, LLC,
Wyndham Hotel and Resorts, LLC, Wyndham Vacation
Resorts, Inc., and Wyndham Vacation Ownership Inc.
were named defendants in the trial court proceedings,
and respondents in the proceedings before the New Jersey
Appellate Division and the New Jersey Supreme Court.
1. Wyndham Worldwide Corp. subsequently changed its
name to Wyndham Destinations, Inc., and moved its corporate
headquarters to Orlando, Florida. See App. 7a n.1. It is now
known as Travel & Leisure Co. Additionally, on May 31, 2018,
Wyndham Hotels and Resorts, Inc. was spun-off from Wyndham
Worldwide and became a separate, publicly-traded company. See
id. As noted by the New Jersey Appellate Division, “[n]onetheless,
the Wyndham Defendants acknowledged that for purposes of this
appeal, Wyndham Worldwide is the relevant direct or indirect
parent corporation of all Wyndham defendants.” Id. (internal
quotation marks omitted). See also App. 11a.

iv
RELATED CASES
New Jersey Supreme Court:
Shifchik v. Wyndham Worldwide Corp., No. 084437
(N.J. Jan. 29, 2021) (reported at 245 N.J. 138) (granting
Petitioners’ motion to file for reconsideration of denial
of certification as within time, and denying motion for
reconsideration)
Shifchik v. Wyndham Worldwide Corp., No. 084437
(N.J. Nov. 20, 2020) (reported at 244 N.J. 397) (denying
Petitioner’s petition for certification)
New Jersey Superior Court, Appellate Division:
Shifchik v. Wyndham Worldwide Corp., Nos. A-569217T4 and A-0246-18T4, 2020 WL 1866942 (N.J. Super.
Ct. App. Div. Apr. 14, 2020) (affirming both rulings of the
trial court)
New Jersey Superior Court, Law Division:
Shifchik v. Wyndham Worldw ide Cor p., et als.,
BER-L-9314-14, Trans ID: LCV20181136213 (N.J. Sup.
Ct. L. Div. June 28, 2018) (granting East Pass Investors,
LLC, Harbor Walk Holding, LLC, and Emerald Grande,
LLC’s motion to dismiss for lack of personal jurisdiction)
Shifchik v. Wyndham Worldw ide Cor p., et als.,
BER-L-9314-14, Trans ID: LCV20181136239 (N.J. Sup.
Ct. L. Div. June 28, 2018) (granting Wyndham Vacation
Resorts, Inc. and Wyndham Vacation Ownership, Inc.’s
cross-motion to dismiss for lack of personal jurisdiction)

v
Florida Ninth Judicial Circuit Court:
Shifchik v. East Pass Investors, LLC, Case No. 2018-CA012675-O (Fl. Cir. Ct. May 20, 2019) (granting East Pass
Investors, LLC, Harbor Walk Holding, LLC, and Emerald
Grande, LLC’s motion to dismiss for failure to timely
commence an action)
Shifchik v. East Pass Investors, LLC, Case No. 2018-CA012675-O (Fl. Cir. Ct. September 25, 2019) (granting
Wyndham Vacation Resorts, Inc. and Wyndham Vacation
Ownership, Inc.’s motion to dismiss for failure to timely
commence an action)

vi
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . .  viii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  ix
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION  . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISION INVOLVED . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE WRIT . . . . . . . . . . 6
I.

R E V I E W I S WA R R A N T E D T O
DET ER M I N E W H ET H ER T H E
EXTENSIVE USE OF THE INTERNET
BY GLOBA L COR POR AT IONS
SUBJECTS THEM TO THE
JURISDICTION OF NEW JERSEY
COURTS.  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

vii
Table of Contents
Page
II. THIS COURT SHOULD GRANT REVIEW
TO ISSUE A GVR ORDER IN LIGHT
OF ITS RECENT DECISION IN FORD
MOTOR CO. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

viii
TABLE OF APPENDICES
Page
APPENDIX A — DENIAL OF CERTIFICATION
OF THE SUPREME COURT OF NEW
JERSEY, FILED NOVEMBER 20, 2020  . . . . . . . . 1a
APPENDIX B — OPINION OF THE SUPERIOR
COURT OF NEW JERSEY, APPELLATE
DIVISION, DATED APRIL 14, 2020 . . . . . . . . . . . . 3a
APPENDIX C — ORDER OF THE SUPERIOR
COURT OF NEW JERSEY LAW DIVISION,
BERGEN COUNTY, FILED JUNE 28, 2018  . . . 28a
A PPEN DI X D — OR DER OF T H E
SUPERIOR COURT OF NEW JERSEY,
L AW DI V ISION, BERGEN COU N T Y,
FILED JUNE 28, 2018 . . . . . . . . . . . . . . . . . . . . . . .46a
A PPENDI X E — DENI A L OF MOTION
F OR R EC ONSI DER AT ION OF T H E
SUPREME COURT OF NEW JERSEY,
FILED JANUARY 29, 2021  . . . . . . . . . . . . . . . . . . 61a

ix
TABLE OF CITED AUTHORITIES
Page
Cases
Advanced Tactical Ordnance Sys., LLC v.
Real Action Paintball, Inc.,
751 F.3d 796 (7th Cir. 2014)  . . . . . . . . . . . . . . . . . . . . 11
ALS Scan, Inc. v.
Digital Serv. Consultants, Inc.,
293 F.3d 707 (4th Cir. 2002) . . . . . . . . . . . . . . . . . . . . 13
Brightwell Dispensers Ltd. v. Dongguan ISCE
Sanitary Ware. Indus. Co. Ltd.,
2019 WL 7037493 (D.D.C. Dec. 20, 2019) . . . . . . . . . 12
Burger King Corp. v. Rudzewicz,
471 U.S. 462 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . . 9, 10
Calder v. Jones,
465 U.S. 783 (1984) . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Cybersell, Inc. v. Cybersell, Inc.,
130 F.3d 414 (9th Cir. 1997) . . . . . . . . . . . . . . . . .  12-13
Daimler AG v. Bauman,
571 U.S. 117 (2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . 7, 9
Ford Motor Co. v. Mont. Eighth Judicial Dist.,
141 S. Ct. 1017 (2021) . . . . . . . . . . . . . . . . . . . . . . passim

x
Cited Authorities
Page
Goodyear Dunlop Tires Operations, S.A. v.
Brown,
564 U.S. 915 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Illinois v. Hemi Grp. LLC,
622 F.3d 754 (7th Cir. 2010) . . . . . . . . . . . . . . . . . . . . 13
International Shoe Co. v. Washington,
326 U.S. 310 (1945)  . . . . . . . . . . . . . . . . . . . . . . . passim
J. McIntyre Machinery, Ltd. v. Nicastro,
564 U.S. 873 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Lakin v. Prudential Sec.,
348 F.3d 704 (8th Cir. 2003) . . . . . . . . . . . . . . . . . . . . 13
Lawrence v. Chater,
516 U.S. 163 (1996)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Mink v. AAAA Dev. LLC,
190 F.3d 333 (5th Cir. 1999) . . . . . . . . . . . . . . . . . . . . 13
Plixer Int’l, Inc. v. Scrutinizer GmbH,
905 F.3d 1 (1st Cir. 2018)  . . . . . . . . . . . . . . . . . . . . . . 12
Shifchik v. East Pass Investors, LLC,
Case No. 2018-CA-012675-O (Fl. Cir. Ct. May 20,
2019 and September 25, 2019) . . . . . . . . . . . . . . . . . . . 6

xi
Cited Authorities
Page
Shifchik v. Wyndham Worldwide Corp., et als.,
BER-L-9314-14, Trans ID: LCV20181136213
(N.J. Sup. Ct. L. Div. June 28, 2018) . . . . . . . . . . . . . . 1
Shifchik v. Wyndham Worldwide Corp., et als.,
BER-L-9314-14, Trans ID: LCV20181136239
(N.J. Sup. Ct. L. Div. June 28, 2018) . . . . . . . . . . . . . . 1
Shifchik v. Wyndham Worldwide Corp.,
Nos. A-5692-17T4 and A-0246-18T4, 2020
WL 1866942 (N.J. Super. Ct. App. Div.
Apr. 14, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Shrader v. Biddinger,
633 F.3d 1235 (10th Cir. 2011) . . . . . . . . . . . . . . . . . . 13
Tamburo v. Dworkin,
601 F.3d 693 (7th Cir. 2010), cert. den. 562 U.S.
1029 (2010) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Walden v. Fiore,
571 U.S. 277 (2014)  . . . . . . . . . . . . . . . . . . . . . .  7, 10, 12
World Wide Volkswagen Corp. v. Woodson,
444 U.S. 286 (1980) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
XMission, L.C. v. Fluent LLC,
955 F.3d 833 (10th Cir. 2020) . . . . . . . . . . . . . . . . . . . 11

xii
Cited Authorities
Page
Zippo Mfg. Co. v. Zippo Dot Com, Inc.,
952 F. Supp. 1119 (W.D. Pa. 1997) . . . . . . . . . . . . 12, 13
Statutes and Other Authorities
U.S. Const. amend. XIV  . . . . . . . . . . . . . . . . . . . . . . . . 6, 9
U.S. Const. amend. XIV, § 1 . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1257(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 2106  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
B. Travis Brown, Salvaging General Jurisdiction:
Satisfying Daimler and Proposing a New
Framework, 3 Belmont L. Rev. 187, 223-24 (2016) . 11
Elma Delic, Cloudy Jurisdiction: Foggy Skies in
Traditional Jurisdiction Create Unclear Legal
Standards for Cloud Computing and Technology,
50 Suffolk U. L. Rev. 471 (2017) . . . . . . . . . . . . . . . . . 14
Jayci Noble, Personal Jurisdiction and the Internet:
A Shift in the International Shoe Analysis for
Users of E-Commerce and Peer-to-Peer Websites,
42 S. Ill. U. L.J. 521 (2018) . . . . . . . . . . . . . . . . . . . . . 11

xiii
Cited Authorities
Page
Jonathan Spencer Barnard, A Brave New Borderless
World: Standardization Would End Decades
of Inconsistency in Determining Proper
Personal Jurisdiction in Cyberspace Cases,
40 Seattle U. L. Rev. 249 (2016) . . . . . . . . . . . . . . . . . 14
M. Margaret McKeown, The Internet and the
Constitution: A Selective Retrospective,
9 Wash. J.L. Tech. & Arts 133 (2014) . . . . . .  10, 12, 14
Ma x D. Lov r in, Vir tual Pretr ial
Ju r i s d i c t i o n f o r V i r t u a l C o n t a c t s ,
85 Brook. L. Rev. 943 (2020) . . . . . . . . . . . . . . . . . . . 14
Pat r ick J. Borcher s, Ex t en din g Fed er a l
Rule of Civil Procedure 4(K)(2): A Way to
(Partially) Clean Up the Personal Jurisdiction
Mess, 67 Am. U.L. Rev. 413 (2017)  . . . . . . . . . . . . . . 11
Raymond T. Nimmer, Law of Computer Technology,
§ 19:7 (Jan. 2020 update)  . . . . . . . . . . . . . . . . . . . . . . 11
Zainab R. Qureshi, If the Shoe Fits: Applying
Personal Jurisdiction’s Stream of Commerce
Analysis to E-Commerce--A Value Test,
21 N.Y.U. J. Legis. & Pub. Pol’y 727 (2019) . . . . . . . 11

1
OPINIONS BELOW
The order and decision of the New Jersey trial court
granting defendants East Pass Investors, LLC, Emerald
Grande, LLC, and Harborwalk Holding, LLC’s motion
to dismiss for lack of personal jurisdiction, Shifchik v.
Wyndham Worldwide Corp., et als., BER-L-9314-14,
Trans ID: LCV20181136213 (N.J. Sup. Ct. L. Div. June 28,
2018), is unreported, and is reproduced at App. 28a-45a.
The order and decision of the New Jersey trial court
granting defendants Wyndham Vacation Resorts, Inc.
and Wyndham Vacation Ownership, Inc.’s cross-motion
to dismiss for lack of personal jurisdiction, Shifchik v.
Wyndham Worldwide Corp., et als., BER-L-9314-14,
Trans ID: LCV20181136239 (N.J. Sup. Ct. L. Div.
June 28, 2018), is unreported, and is reproduced at
App. 46a-60a. The opinion of the New Jersey Appellate
Division affirming the rulings of the trial court, Shifchik
v. Wyndham Worldwide Corp., Nos. A-5692-17T4 and
A-0246-18T4, 2020 WL 1866942 (N.J. Super. Ct. App.
Div. Apr. 14, 2020), is unreported, and is reproduced at
App. 3a-27a. The order of the New Jersey Supreme Court
denying Petitioners’ motion for certification is reported at
244 N.J. 397, and is reproduced at App. 1a-2a. The order
of the New Jersey Supreme Court denying Petitioners’
motion for reconsideration is reported at 245 N.J. 138,
and is reproduced at App. 61a-63a.
STATEMENT OF JURISDICTION
The decision of the New Jersey Appellate Division
was rendered on April 14, 2020. The order of the New
Jersey Supreme Court denying Petitioners’ petition for
certification was entered on November 20, 2020. The order

2
of the New Jersey Supreme Court denying Petitioners’
motion for reconsideration was entered on January 29,
2021. On March 19, 2020, this Court entered an order
extending the deadline to file any petition for a writ of
certiorari by 150 days. This Court has jurisdiction under
28 U.S.C. § 1257(a).
CONSTITUTIONAL PROVISION INVOLVED
The Due Process Clause of the Fourteenth Amendment,
U.S. Const. amend. XIV, § 1, provides:
[N]or shall any State deprive any person of life,
liberty, or property, without due process of law.
STATEMENT OF THE CASE
This case presents an ideal and timely opportunity
to reexamine the continued viability of current personal
jurisdiction standards, and more particularly the
distinction between general and specific jurisdiction, in
light of present day commercial norms. Anton Shifchik
(“Shifchik”), and his parents, Zhanna Shifchik and Slava
Shifchik (collectively, “Petitioners”), seek review of a
decision of the New Jersey Appellate Division, which
affirmed two decisions of a New Jersey trial court,
both of which ruled that New Jersey courts may not,
consistent with the Due Process Clause of the Fourteenth
Amendment, exercise general personal jurisdiction
or specific personal jurisdiction over defendants East
Pass Investors, LLC, Harbor Walk Holding, LLC,
and Emerald Grande LLC (collectively, the “Emerald
Grande Defendants”), Wyndham Vacation Resorts, Inc.
(“Wyndham Vacation”), or Wyndham Vacation Ownership

3
Inc. (Wyndham Ownership”), despite them having a
significant virtual presence within the state.
In 2013, Shifchik, a New Jersey resident, travelled to
Florida to attend the wedding of two New Jersey residents
at the Emerald Grande Hotel (the “Hotel”), a Wyndham
Worldwide Corp. (“Wyndham Worldwide”) affiliated
timeshare in Destin, Florida. App. 6a-7a. At the time the
events of this case took place, Wyndham Worldwide was a
global hospitality company with hundreds of subsidiaries
and affiliates and allowed consumers to make reservations
for all Wyndham properties throughout the world via the
internet. Wyndham Worldwide had its principal place of
business in New Jersey and employed over 22,000 people
in New Jersey. New Jersey served as the command post
for global internet reservations at all Wyndham properties
throughout the world. One of its subsidiaries, Wyndham
Vacation owns and operates a huge hotel in Atlantic City,
New Jersey, and employs hundreds at that hotel.
Shifchik was not staying at the Hotel, but was invited
there by friends – the couple getting married – who were
staying at the Hotel. App. 6a-7a, 42a. The bride and her
parents found the Emerald Grande online and were
attracted to it as the wedding venue by the description
of the Hotel as a marvelous venue for a destination
wedding. App. 42a. While at the Hotel, Shifchik suffered
catastrophic and permanent injuries when he dove into the
Hotel’s defectively designed pool that misleadingly gave
the appearance that its shallow end was in fact the deep
part of the pool. App. 6a-7a. Petitioners filed an action in
New Jersey against the Hotel, Wyndham Worldwide and
numerous other subsidiaries in the Wyndham corporate
chain who have ownership and/or managerial control of the

4
Emerald Grande, as well as multiple Wyndham affiliates.
App. 5a-8a. New Jersey is the only place Shifchik could
reasonably participate in the prosecution of his case due
to his paralyzing injuries and his inability to travel.
In 2014, the Emerald Grande Defendants filed a motion
to dismiss based on lack of personal jurisdiction. App. 8a9a. The trial court denied the motion without prejudice,
and directed the parties to engage in discovery. Id.
In 2018, the Emerald Grande Defendants filed a motion
for summary judgment for lack of personal jurisdiction.
App. 11a.1 Shortly thereafter, Wyndham Ownership and
Wyndham Vacation filed a cross-motion to dismiss for lack
of personal jurisdiction. Id. 2 The record on the motions
demonstrated that many of the entities in the Wyndham
corporate chain, as well as affiliated entities, are involved
in the control and management of the Hotel, and that the
Hotel’s internet reservations are routed automatically to
the website and reservation control center of Wyndham
1. While the New Jersey Appellate Division referred to
this as a motion for summary judgment, see App. 11a, the trial
court treated this motion as one to dismiss for lack of personal
jurisdiction. App. 29a, 31a.
2. The remaining four Wyndham entities – Wyndham
Worldw ide Corp., Wyndham Worldw ide Operations, Inc.,
Wyndham Hotel Group, LLC, and Wyndham Hotel and Resorts,
LLC – did not join in this portion of the cross-motion, and only
sought dismissal based on a failure to state a claim. App. 49a.
Each one of these four entities conceded that they were subject
to general personal jurisdiction in New Jersey, and Petitioners’
claims against them were dismissed with prejudice because
Petitioners failed to allege facts to provide the court a basis to
impose a duty on those entities. App. 60a.

5
Worldwide – the ultimate parent of all the Wyndham
defendants – which is located in New Jersey. See App.
4a, 9a-10a, 23a, 36a-37a. See also Petitioners’ Feb. 1, 2019
appendix in support of their appeal before the New Jersey
Appellate Division (hereinafter, “Pa”) at Pa327, Pa333Pa334, Pa337, Pa538-Pa544, Pa757, Pa820, Pa822-Pa823,
Pa919, Pa1178-Pa1189, Pa1332-Pa1333, Pa1398-Pa1402,
Pa1411-Pa1418.
The trial court g ranted the Emerald Grande
Defendants’ motion and dismissed plaintiffs’ pleading, see
App. 29a-30a, ruling that Petitioners failed to demonstrate
that their contacts with New Jersey were sufficient to
subject them to general or specific personal jurisdiction.
App. 40a-45a. The trial court also granted Wyndham
Ownership and Wyndham Vacation’s cross-motion and
dismissed plaintiffs’ pleading, see App. 47a-48a, ruling
that Petitioners failed to demonstrate that their contacts
with New Jersey were sufficient to subject them to general
or specific personal jurisdiction. App. 55a-60a.
Petitioners timely appealed, and the New Jersey
Appellate Division affirmed both of the trial court’s
rulings. However, the court never addressed the
jurisdictional arguments based upon the global promotion
of the company through the internet, the centralized
internet reservation center located in New Jersey, or
that Wyndham Worldwide provided support services and
direction to the Hotel. It held that neither the Emerald
Grande Defendants, Wyndham Vacation, nor Wyndham
Ownership are subject to general personal jurisdiction
in New Jersey. App. 18a-20a. It further held that none of
these entities is subject to specific personal jurisdiction
in New Jersey. Id.

6
Petitioners petitioned the Supreme Court of New
Jersey for certification, which was denied on November
20, 2020. App 1a-2a. On January 29, 2021, the Supreme
Court of New Jersey denied Petitioners’ motion for
reconsideration. App 62a-63a.
Petitioners filed a separate action in Florida, which
was dismissed on May 20, 2019 as to the Emerald Grande
Defendants, and on September 25, 2019 as to defendants
Wyndham Vacation and Wyndham Ownership, as
untimely. See Shifchik v. East Pass Investors, LLC, Case
No. 2018-CA-012675-O (Fl. Cir. Ct. May 20, 2019 and
September 25, 2019) (both granting motion to dismiss for
failure to timely commence the action).
REASONS FOR GRANTING THE WRIT
Over 75 years ago the seminal case of International
Shoe Co. v. Washington, 326 U.S. 310, 316 (1945) set
the standard for personal jurisdiction based upon the
simple test of “minimum contacts.” The time is ripe for
this Court to examine the Fourteenth Amendment’s
Due Process Clause limitation on a state court’s power
to exercise jurisdiction over a foreign corporation. Since
International Shoe and its progeny, federal courts have
attempted to balance the need to treat defendants fairly
while at the same time protecting “interstate federalism.”
World Wide Volkswagen Corp. v. Woodson, 444 U.S. 286,
293-94 (1980). By giving parties ““fair warning”” of the
standards that will govern the exercise of jurisdiction,
defendants could take steps “to lessen or avoid exposure to
a given State’s courts.” Ford Motor Co., 141 S. Ct. at 1025
(internal citation omitted). Our current understanding
of personal jurisdiction arose from a “strict territorial

7
approach [which] yielded to a less rigid understanding,
spurred by “changes in the technology of transportation
and communication, and the tremendous growth of
interstate business activity.”” Daimler AG v. Bauman,
571 U.S. 117, 126 (2014) (internal citation omitted). During
oral argument in Ford Motor Co., the Chief Justice posed
this hypothetical, which raised the question of whether
the broad use of internet commerce has altered the
jurisdictional standards established 75 years ago:
[There’s a] retired guy in a small town up in
Maine who carves decoys. And friends say:
These are great, you ought to sell them on the
Internet. And so he gets a site on the Internet,
and it has a little thing that links to it that says,
you know, buy my decoys. Can he be sued in
any state if some harm arises from the decoy?
Oral Arg. Tr., Ford Motor Co. v. Mont. Eighth Judicial
Dist., Nos. 19-368 and 19-369 (Oct. 7, 2020), at 39:2 – 7.
Tellingly, three Justices saw fit to include in
their concurring opinions the need to reexamine the
International Shoe line of cases in view of the modern
realties of global corporations using the internet to
promote their worldwide business. See Ford Motor Co., 141
S. Ct. at 1032 (Alito, J., concurring in the judgment); id. at
1034, 1038-39 (Gorsuch, J., with whom Thomas, J., joined,
concurring in the judgment). This case now presents the
perfect opportunity to reexamine and redefine personal
jurisdiction standards in the era of global business
activities conducted through the internet. The Court
can answer the question raised in Walden v. Fiore, 571
U.S. 277, 290 n.9 (2014): “whether and how a defendant’s

8
virtual “presence” and conduct translate into “contacts”
with a particular State.” As suggested by Justice Gorsuch,
perhaps the internet has so changed the way that business
is conducted that any nationwide company that uses the
internet for business purposes will be subject to suit in
any jurisdiction, thus rejecting the need to establish that
the suit must arise out of or relate to the defendants’
contacts with the forum. See Ford Motor Co., 141 S. Ct.
at 1037-39 and n.5 (Gorsuch, J., with whom Thomas, J.,
joined, concurring in the judgment). Should this Court
decide not to reexamine personal jurisdiction in light of
virtual contacts, it should grant certiorari based on the
second question presented. The New Jersey Appellate
Division’s ruling that New Jersey may not exercise
specific personal jurisdiction over the Emerald Grande
Defendants, Wyndham Vacation, or Wyndham Ownership
in the absence of a “but for” causal relationship between
their contacts with New Jersey and Shifchik’s injuries is
inconsistent with the holding in Ford Motor Co. See 141
S. Ct. at 1026-27. In view of the inconsistency, this Court
should grant certiorari, vacate the judgment below, and
remand in light of this intervening precedent to reexamine
whether these defendants’ contacts with New Jersey
related to Shifchik’s accident and injuries. If given the
opportunity to reconsider its decision, the New Jersey
Appellate Division likely will find that New Jersey may
exercise specific personal jurisdiction over all or some of
these defendants and reverse its decision.

9
I.

REVIEW IS WARRANTED TO DETERMINE
WHETHER THE EXTENSIVE USE OF THE
INTERNET BY GLOBAL CORPORATIONS
SUBJECTS THEM TO THE JURISDICTION OF
NEW JERSEY COURTS.

International Shoe and its progeny defined the
standards applicable to a state court’s power to exercise
jurisdiction over a foreign corporation consistent with
the Due Process Clause of the Fourteenth Amendment.
International Shoe requires “minimum contacts” with the
forum state where the corporation is subjected to suit, so
long as that “does not offend ‘traditional notions of fair
play and substantial justice.’” 326 U.S. at 316-17 (internal
citation omitted).
Over the 75 years since International Shoe was
decided, this notion of fair play and substantial justice
arising from contacts with the forum has morphed
into different tests for general jurisdiction and specific
jurisdiction. See Goodyear Dunlop Tires Operations, S.A.
v. Brown, 564 U.S. 915, 919 (2011). If a corporation was
“at home” in the forum, it could be sued even though the
claim was not related to the forum state or to its activity
in the state. Id. Because this was a more inclusive concept
of jurisdiction, only limited circumstances or “affiliations”
with the forum state would subject the defendant to
jurisdiction. See Daimler, 571 U.S. at 137.
Specif ic jur isdiction rests on a corporation’s
“purposeful availment” of the forum state. Burger King
Corp. v. Rudzewicz, 471 U.S. 462, 475 (1985) (internal
quotation marks and citation omitted). The focus is on
the corporation’s choice to avail itself of the benefits of

10
the forum state, like “exploi[ting] a market” or “entering
a contractual relationship centered there.” Ford Motor
Co., 141 S. Ct. at 1025 (quoting Walden, 571 U.S. at 285).
These decisions rested upon giving a company “fair
warning,” see Burger King Corp., 471 U.S. at 472 (internal
quotation marks and citation omitted), and “clear notice”
that an activity or undertaking would give rise to suit in
the forum. World-Wide Volkswagen, 444 U.S. at 297.
The internet has radically changed 75 years of
jurisdictional jurisprudence. Now, global companies
routinely rely upon the internet to market their goods
and services and reach into every home and business
in America. The intrusive and all-present reach of the
internet to penetrate every business and every family now
gives rise to a new analytic: the minimum contacts test
of International Shoe is satisfied if a company uses the
internet for business purposes, and that company may be
sued in every state where citizens can access the company’s
online presence. The prior distinctions between general
and specific jurisdiction are no longer applicable, as the
use of the monolithic internet has radically extended the
company’s reach into every nook and cranny of American
society. The deliberate use of the internet to promote
the business of the company now satisfies all tests for
“purposeful availment” or “minimum contacts” that have
evolved since International Shoe. See, e.g., M. Margaret
McKeown, The Internet and the Constitution: A Selective
Retrospective, 9 Wash. J.L. Tech. & Arts 133, 146 (2014)
(“In some respects, we are approaching universal personal
jurisdiction depending on how the court characterizes a
certain website and its effect”).

11
This Court, however, has never directly addressed
personal jurisdiction based on an entity’s virtual presence,
an issue of significant importance in the legal community
and which has been the subject of a large body of legal
commentary. 3 In light of these monumental changes, and
the absence of guidance from this Court, our courts have
struggled to adapt personal jurisdiction to cyberspace
for more than a generation. It is undisputed that the
lack of direct precedent and specific guidance from this
Court concerning virtual contacts to establish personal
jurisdiction has left the lower courts in disarray, resulting
in the adoption of divergent analyses. This vacuum has
resulted in the lower courts being “desperate ... for some
path markers.” Patrick J. Borchers, Extending Federal
Rule of Civil Procedure 4(K)(2): A Way to (Partially)
Clean Up the Personal Jurisdiction Mess, 67 Am. U.L.
Rev. 413, 437 (2017).4
3. See, e.g., Raymond T. Nimmer, Law of Computer
Technology, § 19:7 (Jan. 2020 update); Zainab R. Qureshi, If the
Shoe Fits: Applying Personal Jurisdiction’s Stream of Commerce
Analysis to E-Commerce--A Value Test, 21 N.Y.U. J. Legis. & Pub.
Pol’y 727, 728, 732 (2019); Jayci Noble, Personal Jurisdiction and
the Internet: A Shift in the International Shoe Analysis for Users
of E-Commerce and Peer-to-Peer Websites, 42 S. Ill. U. L.J. 521,
522-23 (2018); B. Travis Brown, Salvaging General Jurisdiction:
Satisfying Daimler and Proposing a New Framework, 3 Belmont
L. Rev. 187, 223-24 (2016).
4. See also, e.g., XMission, L.C. v. Fluent LLC, 955 F.3d 833,
844 (10th Cir. 2020) (internal quotation marks and citation omitted)
(“The Supreme Court has only alluded to these issues, leav[ing]
questions about virtual contacts [via the Internet] for another day.
... Thus, for now, development of personal-law in the Internet context
has been left to the lower courts”); Advanced Tactical Ordnance
Sys., LLC v. Real Action Paintball, Inc., 751 F.3d 796, 802 (7th
Cir. 2014) (“The Supreme Court has not definitively answered

12
By way of example, amongst the divergent approaches
adopted by the lower courts, the standard set forth in
Zippo Mfg. Co. v. Zippo Dot Com, Inc., 952 F. Supp. 1119,
1124 (W.D. Pa. 1997) – that “the likelihood that personal
jurisdiction can be constitutionally exercised is directly
proportionate to the nature and quality of commercial
activity that an entity conducts over the Internet,” and
that “[t]his sliding scale is consistent with well-developed
personal jurisdiction principles” – has been adopted by
multiple courts. See, e.g., Cybersell, Inc. v. Cybersell, Inc.,
how a defendant’s online activity translates into “contacts” for
purposes of the “minimum contacts” analysis …We have faced that
problem on several occasions ....”); Plixer Int’l, Inc. v. Scrutinizer
GmbH, 905 F.3d 1, 7-8 (1st Cir. 2018) (“The Supreme Court has not
definitively answered how a defendant’s online activities translate
into contacts for purposes of the minimum contacts analysis.... In
the absence of Supreme Court guidance, we are extremely reluctant
to fashion any general guidelines beyond those that exist in law, so
we emphasize that our ruling is specific to the facts of this case”);
Brightwell Dispensers Ltd. v. Dongguan ISCE Sanitary Ware.
Indus. Co. Ltd., 2019 WL 7037493, at *6 (D.D.C. Dec. 20, 2019)
(internal citation omitted) (“Although the Supreme Court has
written extensively on minimum contacts, it left “questions about
virtual contacts for another day.” ... In that silence, courts have used
different approaches to evaluate whether website activity provides
the requisite minimum contacts with a forum”); McKeown, supra at
146 (“The Supreme Court has not yet considered an Internet case
…The closest insight came from Justice Breyer’s comment in his
concurrence that [J. McIntyre Machinery, Ltd. v. Nicastro, 564 U.S.
873 (2011)], albeit an international case, wasn’t the case to rework
personal jurisdiction “without a better understanding of the relevant
contemporary commercial circumstances””); Borchers, supra at 437
(“All of the Supreme Court’s decisions, including the recent ones, are
decidedly old school .... The possibility that virtual contacts might
raise different considerations earned a brief mention in Walden. But
these asides give lower courts no guidance”).

13
130 F.3d 414, 418 (9th Cir. 1997); Mink v. AAAA Dev. LLC,
190 F.3d 333, 336 (5th Cir. 1999); ALS Scan, Inc. v. Digital
Serv. Consultants, Inc., 293 F.3d 707, 714 (4th Cir. 2002);
Lakin v. Prudential Sec., 348 F.3d 704, 710-11 (8th Cir.
2003) (all adopting, to some degree, the Zippo standard).
However, while Zippo has been adopted by some
courts, it has also been rejected by multiple courts – in
whole or in part – which favor differing standards. See,
e.g., Illinois v. Hemi Grp. LLC, 622 F.3d 754,758 (7th
Cir. 2010) (“We wish to point out that we have done the
entire minimum contacts analysis without resorting to
the sliding scale approach first developed in Zippo....
This was not by mistake. Although several other circuits
have explicitly adopted the sliding scale approach ...
our court has expressly declined to do so”); Tamburo v.
Dworkin, 601 F.3d 693, 703 n.7 (7th Cir. 2010), cert. den.
562 U.S. 1029 (2010) (declining to adopt the Zippo test
because “Calder [v. Jones, 465 U.S. 783 (1984)] speaks
directly to personal jurisdiction in intentional-tort cases;
the principles articulated there can be applied to cases
involving tortious conduct committed over the Internet”);
Shrader v. Biddinger, 633 F.3d 1235, 1242 n.5 (10th
Cir. 2011) (declining to either adopt or reject Zippo and
deciding case on traditional factors, noting that “even
th[o]se courts [that adopt the Zippo standard] tend to
employ it more as a heuristic adjunct to, rather than a
substitute for, traditional jurisdictional analysis”).
The result of all the foregoing has been inconsistency
and a lack of predictability, where the outcome of a
jurisdictional challenge is more dependent on the forum
in which the case is brought (and the particular panel
hearing an appeal) and less on the facts of the case.

14
See, e.g., Max D. Lovrin, Virtual Pretrial Jurisdiction
for Virtual Contacts, 85 Brook. L. Rev. 943, 945 (2020)
(footnote omitted) (“Cases involving assertions of personal
jurisdiction predicated on internet-based contacts have
become especially unpredictable”); Elma Delic, Cloudy
Jurisdiction: Foggy Skies in Traditional Jurisdiction
Create Unclear Legal Standards for Cloud Computing
and Technology, 50 Suffolk U. L. Rev. 471, 488 (2017)
(footnote omitted) (“Courts have added ambiguity through
vague decisions, making it challenging for businesses to
develop strategies for technological advancement because
they do not know where they could be open to litigation”);
McKeown, supra at 146 (“In my view, there is no coherent
theme in [internet] jurisdiction cases....”); Jonathan
Spencer Barnard, A Brave New Borderless World:
Standardization Would End Decades of Inconsistency
in Determining Proper Personal Jurisdiction in
Cyberspace Cases, 40 Seattle U. L. Rev. 249, 257 (2016)
(footnote omitted) (“Although the Internet is no longer a
new phenomenon, and the concept of claims arising out
of conduct performed in cyberspace is no longer novel,
there remains no consistent standard for how to apply
traditional notions of personal jurisdiction to cyberspace
cases”).
These pressing issues are reflected in this matter. The
record is replete with the pervasive use of the internet
by the Wyndham parent entity and its subsidiaries and
affiliates, as well as managerial control of the Hotel where
the accident occurred:
(i) Reservations for Wyndham Worldwide and its
subsidiaries and affiliates, including the site of
the accident, can be, and are usually, made on the

15
internet. See App. 4a, 9a-10a, 23a, 36a-37a. See
also Pa327, Pa333-Pa334, Pa337, Pa538-Pa544,
Pa820, Pa822-Pa823, Pa919, Pa1178-Pa1189,
Pa1332-Pa1333, Pa1398-Pa1402, Pa1411-Pa1418.
(ii) Wy ndham Worldw ide, the global pa rent ,
maintained a principal place of business in New
Jersey and employed 22,000 people in New
Jersey. The situs of the internet reservation
headquarters is in New Jersey. See id.
(iii) Both Wyndham Worldwide and its subsidiary,
Wyndham Vacation, had managerial control of
and connection to the Resort where the accident
occurred, including setting safety standards for
the pool area, and shared accounting, legal and
other management services. Wyndham Vacation
also owns 41% of the timeshare units of the
Resort and owns an easement on the pool where
the accident occurred. See id.
The New Jersey Appellate Division never addressed
the core issues raised below: whether the use of the
internet by the Hotel where the accident occurred and the
centralized business location of the internet reservation
headquarters in New Jersey satisfy the jurisdictional
requirements of minimum contacts and/or purposeful
availment of the forum state. The finding of the Appellate
Division that there was neither general nor specific
jurisdiction was patently erroneous, and the refusal of
the New Jersey Supreme Court to grant the petition for
certification was also in error. This Court should grant
this petition in order to address for the first time how the
use of the internet by global companies has altered the law

16
of personal jurisdiction first enunciated in International
Shoe, and now rule that these standards have been
replaced by the realities of the current marketplace which
is dominated by the internet.
II. THIS COU RT SHOU LD GR A N T REV IEW
TO ISSUE A GVR ORDER IN LIGHT OF ITS
RECENT DECISION IN FORD MOTOR CO.
Where a decision of an appellate court is called into
question by an intervening development, such as a recent
decision of this Court, it has been “an integral part of this
Court’s practice” to exercise its discretionary certiorari
jurisdiction and grant certiorari, vacate the decision of
the appellate court, and remand the case to the appellate
court for reconsideration in light of the intervening
precedent. See Lawrence v. Chater, 516 U.S. 163, 166-68
(1996); 28 U.S.C. § 2106. This practice sometimes referred
to as “GVR” (“grant, vacate, remand”) is “potentially
appropriate” where, in light of an intervening development
that “the court below did not fully consider,” there is “a
reasonable probability that the decision below rests upon
a premise that the lower court would reject if given the
opportunity for further consideration” and “it appears
that such a redetermination may determine the ultimate
outcome of the litigation.” Lawrence, 516 U.S.at 167.
GVR is appropriate in this matter. In its recent
decision of Ford Motor Co., this Court held that “[n]one
of our precedents has suggested that only a strict causal
relationship between the defendant’s in-state activity and
the litigation will do” in order to establish personal specific
jurisdiction, and that “some relationships will support
jurisdiction without a causal showing.” 141 S. Ct. at 1026.
Yet the New Jersey Appellate Division held that Wyndham

17
Vacation, Wyndham Ownership, and the Emerald Grande
Defendants are not subject to specific personal jurisdiction
because Petitioners could not establish “but for” causation.
With regard to Wyndham Vacation, the court stated that:
Wyndham Vacation [] is not subject to specific
jurisdiction in New Jersey in relationship to
plaintiff’s accident. Its connections to New
Jersey are entirely unrelated to plaintiff’s
accident. Plaintiff did not book a room at the
Resort through Wyndham Vacation. Indeed,
as already pointed out, the plaintiff did not
have a room at the Resort. Furthermore,
there is no evidence that plaintiff went to the
Resort because of any action or solicitation of
Wyndham Vacation… Wyndham Vacation [] did
not bring plaintiff to the resort or cause him
to dive into the pool.
App. 19a-20a (emphasis added). With regard to the
Emerald Grande Defendants, the court stated that there
was no specific jurisdiction because the Hotel is located
in Florida, and “[t]here is no evidence that the Emerald
Grande Defendants had any contact with plaintiff or
solicited him to come to the Resort.” App. 18a (emphasis
added). The court’s decision is therefore inconsistent with
Ford Motor Co.
If given an opportunity to reexamine its decision, it
is likely that the Appellate Division would find that these
entities’ contacts with New Jersey would subject them
to specific personal jurisdiction. By way of example,
Wyndham Vacation is registered to and does do business
in New Jersey, has twenty-three employees who work
in New Jersey, and also owns and manages a resort in

18
Atlantic City. App. 9a, 19a. Wyndham Vacation has a
sales and marketing agreement with Emerald Grande,
LLC – which is wholly owned by Harborwalk, LLC,
which operates the Resort, see App. 31a – and also owns
forty-one percent of the Resort’s timeshare units, eight
condominiums at the Resort, and has an easement to use
its common areas and pool. App. 7a, 10a. Additionally,
through a separate agreement between these two entities,
owners of suites at the Hotel can timeshare their suites
through Wyndham Vacation. App. 9a-10a. These contacts
are more than sufficient to satisfy Ford Motor Co.’s
standard for a relationship between Shifchik’s injuries
and the forum state. Accordingly, this Court should grant
the second question presented, and vacate the decision of
the New Jersey Appellate Division, and remand the case
for further proceedings.
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,
Bruce H. Nagel
Counsel of Record
Nagel Rice LLP
103 Eisenhower Parkway
Roseland, NJ 07068
(973) 618-0400
bnagel@nagelrice.com
Attorneys for Petitioners
June 28, 2021

APPENDIX

1a
Appendix
Appendix A — denial
of A
certification of
the supreme court of new jersey,
filed november 20, 2020
SUPREME COURT OF NEW JERSEY
C-292 September Term 2020
084437
ANTON SHIFCHIK, ZHANNA SHIFCHIK
AND SLAVA SHIFCHIK,
Plaintiffs-Petitioners,
v.
WYNDHAM WORLDWIDE CORPORATION, ITS
AGENTS, SERVANTS AND/OR EMPLOYEES,
EAST PASS INVESTORS, LLC, D/B/A THE
EMERALD GRANDE AND/OR HARBORWALK
HOLDING, LLC, AND/OR EMERALD GRANDE
LLC, AND ITS AGENTS, SERVANTS AND/OR
EMPLOYEES, et al.,
Defendants-Respondents.

ANTON SHIKCHIK, ZHANNA SHIFCHIK
AND SLAVA SHIFCHIK,
Plaintiffs,

2a
Appendix A
v.
WYNDHAM WORLDWIDE CORPORATION, ITS
AGENTS, SERVANTS AND/OR EMPLOYEES, et al.,
Defendants,
EAST PASS INVESTORS, LLC, D/B/A THE
EMERALD GRANDE AND/OR HARBORWALK
HOLDING, LLC AND/OR EMERALD GRANDE
LLC, AND ITS AGENTS, SERVANTS AND/OR
EMPLOYEES,
Defendants.
ORDER
A petition for certification of the judgment in A-569217 and A-0246-18 having been submitted to this Court,
and the Court having considered the same;
It is ORDERED that the petition for certification is
denied, with costs.
WITNESS, the Honorable Stuart Rabner, Chief
Justice, at Trenton, this 17th day of November, 2020.
/s/				
CLERK OF T H E SU PREM E
COURT

3a
Appendixof
B the SUPERIOR
Appendix B — opinion
COURT OF NEW JERSEY, APPELLATE
DIVISION, DATED April 14, 2020
SUPERIOR COURT OF NEW JERSEY
APPELLATE DIVISION
DOCKET NOS. A-5692-17T4, A-0246-18T4
ANTON SHIFCHIK, ZHANNA SHIFCHIK,
AND SLAVA SHIFCHIK,
Plaintiffs-Appellants,
v.
WYNDHAM WORLDWIDE CORPORATION, ITS
AGENTS, SERVANTS AND/OR EMPLOYEES,
WYNDHAM WORLDWIDE OPERATIONS, INC.,
ITS AGENTS, SERVANTS AND/OR EMPLOYEES,
WYNDHAM HOTEL GROUP, LLC, ITS AGENTS,
SERVANTS AND/OR EMPLOYEES, WYNDHAM
HOTEL AND RESORTS, LLC, ITS AGENTS,
SERVANTS AND/OR EMPLOYEES, WYNDHAM
VACATION RESORTS, INC., ITS AGENTS,
SERVANTS AND/OR EMPLOYEES, WYNDHAM
VACATION OWNERSHIP, INC., ITS AGENTS,
SERVANTS AND/OR EMPLOYEES, EAST PASS
INVESTORS, LLC, D/B/A THE EMERALD
GRANDE AND/OR HARBORWALK HOLDING,
LLC, AND/OR EMERALD GRANDE LLC, AND ITS
AGENTS, SERVANTS AND/OR EMPLOYEES,
Defendants-Respondents.

4a
Appendix B
––––––––––––––––––––––––––––––
ANTON SHIFCHIK, ZHANNA SHIFCHIK,
AND SLAVA SHIFCHIK,
Plaintiffs-Respondents,
v.
WYNDHAM WORLDWIDE CORPORATION, ITS
AGENTS, SERVANTS AND/OR EMPLOYEES,
WYNDHAM WORLDWIDE OPERATIONS, INC.,
ITS AGENTS, SERVANTS AND/OR EMPLOYEES,
WYNDHAM HOTEL GROUP, LLC, ITS AGENTS,
SERVANTS AND/OR EMPLOYEES, WYNDHAM
HOTEL AND RESORTS, LLC, ITS AGENTS,
SERVANTS AND/OR EMPLOYEES, WYNDHAM
VACATION RESORTS, INC., ITS AGENTS,
SERVANTS AND/OR EMPLOYEES, AND
WYNDHAM VACATION OWNERSHIP, INC., ITS
AGENTS, SERVANTS AND/OR EMPLOYEES,
Defendants,
and
EAST PASS INVESTORS, LLC, D/B/A THE
EMERALD GRANDE AND/OR HARBORWALK
HOLDING, LLC, AND/OR EMERALD GRANDE
LLC, AND ITS AGENTS, SERVANTS
AND/OR EMPLOYEES,
Defendants-Appellants.

5a
Appendix B
February 11, 2020, Argued
April 14, 2020, Decided
Before Judges Fisher, Gilson and Rose.
On appeal from the Superior Court of New Jersey,
Law Division, Bergen County, Docket No. L-9314-14.
PER CURIAM
Plaintiff Anton Shifchik, a New Jersey resident, was
injured at a Florida resort. He filed his personal injury
action in New Jersey, suing companies that developed and
managed the Florida resort. All those companies were
incorporated and have their principal places of business
in Florida. Plaintiff also sued a corporation that had a
sales and marketing agreement with the Florida resort.
That corporation was incorporated in Delaware and
principally operated in Florida. Finally, plaintiff sued
the parent and affiliated companies of the corporation
that had the sales and marketing agreement; the ultimate
parent corporation had its principal place of business in
New Jersey.
Plaintiff appeals from an order granting summary
judgment in favor of the Florida companies that developed
and managed the Florida resort. He also appeals from an
order dismissing his claims against the corporation with
the sales and marketing agreement and its corporate
parents and affiliates. In addition, plaintiff appeals from
several orders that limited the scope of discovery.

6a
Appendix B
The trial court ruled that the Florida companies and
the corporation with the sales and marketing agreement
were not subject to personal jurisdiction in New Jersey.
The court also ruled that the parent and affiliated
companies of the corporation with the sales and marketing
agreement were not responsible for the alleged actions of
their affiliated company and therefore could not be liable
for plaintiff’s injuries. We agree and affirm.
The Florida companies filed a separate appeal,
challenging the trial court’s order denying their request
for frivolous-litigation sanctions against plaintiff and his
counsel. We consolidate both appeals for purposes of this
opinion, and we also affirm the order denying sanctions.
I.
We derive the facts from the record developed on the
motions for summary judgment and dismissal. We view
those facts in the light most favorable to plaintiff, the
non-moving party. Globe Motor Co. v. Igdalev, 225 N.J.
469, 479, 139 A.3d 57 (2016) (citing Brill v. Guardian Life
Ins. Co of Am., 142 N.J. 520, 541-42, 666 A.2d 146 (1995)).
In the early morning hours of October 19, 2013,
plaintiff was injured when he dove headfirst into a pool
at the Emerald Grande Hotel, located in Destin, Florida
(the Resort). At the time of the accident, plaintiff was an
adult, lived in New Jersey, and was in Florida to attend a
wedding. Plaintiff was not staying at the Resort. Instead
plaintiff had been invited to the Resort by friends who were
staying there and who were also attending the wedding.

7a
Appendix B
As a result of his accident, plaintiff was severely injured
and significant parts of his body have been paralyzed.
Approximately one year after the accident, on October
3, 2014, plaintiff filed a personal injury action in New
Jersey. Plaintiff sued three groups of defendants. First, he
sued three Florida companies that developed and managed
the Resort. Those defendants are Emerald Grande, LLC
(Emerald), East Pass Investors, LLC (East Pass), and
Harborwalk Holding, LLC (collectively the Emerald
Grande Defendants). Second, plaintiff sued Wyndham
Vacation Resorts (Wyndham Vacation), which has a
sales and marketing agreement with the Resort. Under
that agreement, Wyndham Vacation marketed some of
the rooms and suites at the Resort and it also owned
portions of some of the rooms and suites. Finally, plaintiff
sued the parent and affiliated corporations of Wyndham
Vacation, including Wyndham Vacation Ownership, Inc.
(Wyndham Ownership), Wyndham Hotel and Resorts,
LLC (Wyndham Hotel), Wyndham Hotel Group, LLC
(Wyndham Group), Wyndham Worldwide Operations,
Inc (Wyndham Operations), and Wyndham Worldwide
Corporation (Wyndham Worldwide). The Wyndham
entities will sometimes be referred to collectively as the
Wyndham Defendants.1
1. In their brief, the Wyndham Defendants point out that
on May 31, 2018, Wyndham Hotels was spun-off from Wyndham
Worldwide and became a separate, publicly traded corporation.
Wyndham Worldwide also changed its name to Wyndham
Destinations, Inc. Nonetheless, the Wyndham Defendants
acknowledged that for purposes of this appeal, Wyndham
Worldwide “is the relevant direct or indirect parent corporation
of all Wyndham Defendants.”

8a
Appendix B
In his complaint, plaintiff alleged that his injuries were
caused by defendants’ negligent operation, maintenance,
and design of the Resort’s pool. Specifically, plaintiff
contended that the defendants breached duties owed
to him by failing to properly design the pool, failing to
properly maintain signage and lighting at the pool, failing
to supervise, guard, and inspect the pool, failing to warn
and give notice of the danger of using the pool, and failing
to maintain the pool in a safe condition. Plaintiff sought
compensatory and punitive damages for the severe and
permanent injuries he suffered. Plaintiff’s parents also
asserted claims, seeking damages for the costs they had
incurred and will incur in caring for plaintiff’s medical
needs. 2
On November 2 0, 2 014, the Emerald Grande
Defendants filed an answer, in which they asserted that
they “are Florida entities and are not subject to the
personal jurisdiction of a New Jersey court.” One month
later, those defendants moved to dismiss the complaint for
lack of personal jurisdiction. Shortly thereafter, the trial
court denied that motion without prejudice and directed
the parties to engage in discovery.
On May 11, 2015, the Wyndham Defendants filed a
motion to dismiss plaintiff’s complaint as to all Wyndham
Defendants, except Wyndham Vacation, arguing that
the other Wyndham Defendants had no connection to
the Resort or plaintiff’s accident. The court denied
2. Although the parents are named as plaintiffs in the
complaint, we refer to plaintiff because he is an adult and is the
individual who suffered the injuries.

9a
Appendix B
that motion, and thereafter the Wyndham Defendants
filed their answer, asserting that the New Jersey court
“lack[ed] personal jurisdiction over” them.
The parties then engaged in discovery, including
discovery focused on whether defendants were subject
to personal jurisdiction in New Jersey. That discovery
established that the Emerald Grande Defendants are
all limited liability companies established in Florida.
In 2007, Emerald developed the Resort, which consists
of 290 suites that are individually owned. East Pass
manages and operates the Resort, and Harborwalk
Holding is the parent company of Emerald and East Pass.
None of the Emerald Grande Defendants had ever been
organized in or registered to do business in New Jersey.
Instead, all the operations and facilities of the Emerald
Grande Defendants are located in Florida, and all of their
employees work in Florida.
Wyndham Vacation is in the business of developing,
marketing, and financing the sale of vacation ownership
interests to individual consumers. Wyndham Vacation
is a Delaware corporation with its principal operations
based in Florida. Wyndham Vacation is registered to do
business in New Jersey, and it has at least twenty-three
employees who work in New Jersey. Wyndham Vacation
also owns and manages the Wyndham Skyline Resort in
Atlantic City.
Effective January 2011, Wyndham Vacation and
Emerald entered into a sales and marketing agreement
(the Agreement), which granted Wyndham Vacation the

10a
Appendix B
exclusive right to market the Resort’s timeshare units.
Under the Agreement, ownership shares in certain
condominium units at the Resort were conveyed to a trust
for the benefit of an association of owners of timeshares.
Wyndham Vacation agreed to sell and market those
ownership shares through the Club Wyndham Access
plan, which was developed and managed by Wyndham
Vacation. Wyndham Vacation owns approximately
forty-one percent of the Resort’s timeshare units, eight
three-bedroom condominiums at the Resort, and has an
easement to use the Resort’s common areas, including
the pool.
The Agreement further provided that individual
vacation ownership interests could be exchanged through
Club Wyndham Plus, which is an exchange program
managed by Wyndham Vacation. In a separate affiliation
agreement, Emerald, Wyndham Vacation, and the
homeowner’s associations of the Resort agreed that the
Resort would become affiliated with Club Wyndham Plus
to allow for the exchange of individual vacation ownership
interests. Under that arrangement owners of suites at
the Resort can timeshare their suites through Wyndham
Vacation.
The Agreement states that it is not a partnership
agreement. Moreover, both the Agreement and the
affiliation agreement provide that all notices should
be given in Florida, that Florida law applies to the
agreements, and that disputes should be brought in a
Florida court.

11a
Appendix B
Wyndham Vacation is owned by Wyndham Ownership,
which in turn is owned by Wyndham Worldwide. Wyndham
Ownership is a Delaware corporation, with its principal
operations in Florida. Wyndham Worldwide, the ultimate
parent company of all Wyndham entities, is a publicly
traded corporation with its principal place of business in
New Jersey. The other Wyndham Defendants were all
affiliated companies of Wyndham Vacation.
Discovery closed in February 2018, however, not all
the scheduled depositions were completed by that time.
On March 1, 2018, the Emerald Grande Defendants filed
a motion for summary judgment. On April 19, 2018, the
Wyndham Defendants filed a “cross-motion” seeking
dismissal of plaintiff’s complaint under Rule 4:6-2(b) and
(e).
One week later, the trial court heard oral argument
on all those motions. Two months later, on June 28, 2018,
the court issued two orders accompanied by written
decisions. In one order, the court granted summary
judgment and dismissed the claim against the Emerald
Grande Defendants without prejudice. In the other
order, the court granted the motion to dismiss plaintiff’s
complaint as to the Wyndham Defendants. Specifically, the
trial court found that the Emerald Grande Defendants,
Wyndham Vacation, and Wyndham Ownership were not
subject to personal jurisdiction in New Jersey. The court
also found that the other Wyndham Defendants had no
direct relationship with the Resort and therefore could
not be responsible for plaintiff’s injuries. In making that

12a
Appendix B
latter ruling, the trial court effectively rejected plaintiff’s
arguments that Wyndham Worldwide and its affiliated
companies were alter egos of or otherwise responsible
for the actions of Wyndham Vacation and Wyndham
Ownership.
After oral argument, but before the trial court issued
its decisions, the Emerald Grande Defendants filed a
motion for frivolous litigation sanctions against plaintiff
and his counsel. The trial court denied that motion in an
order dated August 31, 2018.
Meanwhile, on August 10, 2018, plaintiff filed his
appeal. Specifically, plaintiff appeals from nine orders:
the two June 28, 2018 orders, which dismissed the claims
against all defendants, and six orders that limited the
scope of discovery and which were dated May 25, 2018;
April 13, 2018; March 6, 2018; February 2, 2018; December
15, 2017; and October 4, 2017. 3
Thereafter, in November 2018, plaintiff filed suit
in Florida against the Emerald Grande Defendants,
Wyndham Vacation, and Wyndham Ownership. At oral
argument, counsel for the parties informed us that the suit
in Florida had been dismissed based on Florida’s four-year
3. Plaintiff also listed a September 7, 2017 order in his notice
of appeal; that order denied his request to file a third amended
complaint. Plaintiff, however, did not brief any issues regarding
the denial of the motion to amend the complaint. Accordingly,
we deem that issue to be waived. Sklodowsky v. Lushis, 417 N.J.
Super. 648, 657, 11 A.3d 420 (App. Div. 2011) (citations omitted).

13a
Appendix B
statute of limitations for personal injury actions. See Fla.
Stat. § 95.11(3) (2018).4
II.
We first address plaintiff’s appeal. The central issue
raised in that appeal is whether defendants are subject
to personal jurisdiction in New Jersey. Specifically,
plaintiff argues (1) the Wyndham Defendants waived their
personal jurisdiction defense; (2) all defendants are subject
to personal jurisdiction in New Jersey; (3) Wyndham
Worldwide and Wyndham Operations are responsible for
plaintiff’s injuries; and (4) plaintiff was denied access to
material discovery. We are not persuaded by any of these
arguments and address each argument in turn.
A.

Waiver

Plaintiff contends that the Wyndham Defendants
waited too long to file their motion to dismiss his claims
based on a lack of personal jurisdiction. Accordingly,
plaintiff argues that the Wyndham defendants waived
that affirmative defense.
Plaintiff, however, did not raise the waiver issue before
the trial court. Consequently, we decline to address that
issue on this appeal. R. 2:10-2; State v. Robinson, 200
4. Plaintiff argues that we should find personal jurisdiction
over defendants because he would have no recourse otherwise.
The procedural history establishes that plaintiff was on notice of
defendants’ jurisdiction al defenses and could have filed an action
in Florida before the Florida statute of limitations elapsed.

14a
Appendix B
N.J. 1, 20, 974 A.2d 1057 (2009) (“[C]ourts will decline to
consider questions or issues not properly presented to the
trial court when an opportunity for such a presentation is
available unless the questions so raised on appeal go to
the jurisdiction of the trial court or concern matters of
great public interest.”); Nieder v. Royal Indem. Ins. Co.,
62 N.J. 229, 234, 300 A.2d 142 (1973).
Although plaintiff seeks to raise the issue of waiver
in connection with personal jurisdiction, that issue is not
the type of jurisdictional question we will address for the
first time on appeal. See ibid.; Byrnes v. Landrau, 326 N.J.
Super. 187, 193, 740 A.2d 1113 (App. Div. 1999) (holding
that personal jurisdiction is a waivable defense). Here,
the trial court had jurisdiction to decide the personal
jurisdiction issues and plaintiff could have raised, but
failed to raise, the waiver argument before the trial court.
Moreover, even if we were to consider the waiver
argument, that argument lacks merit. Rule 4:6-2(b)
requires the defense of lack of personal jurisdiction to
be asserted in a defendant’s answer. Rule 4:6-3 then
requires that a motion to dismiss based on the lack of
personal jurisdiction “shall be raised by motion within
[ninety] days after service of the answer . . . .” Rule 4:6-7
goes on to state that the defense of personal jurisdiction
is “waived if not raised by motion pursuant to [Rule] 4:6-3
. . . .” Nevertheless, all those rules are subject to Rule 1:1-2,
which states that the trial court can relax or dispense with
any rule “if adherence to it would result in an injustice.”
See also R. 1:3-4(a) (allowing a court to enlarge the time
for taking an action).

15a
Appendix B
Before filing their answer, the Wyndham Defendants
moved to dismiss plaintiff’s claims. At the time they
filed their motion, the Emerald Grande Defendants had
already moved to dismiss plaintiff’s claims on personal
jurisdiction grounds, but that motion had been denied
and the parties were directed to engage in discovery,
including jurisdictional discovery. The Wyndham
Defendants’ initial motion to dismiss was also denied
without prejudice. Thereafter, the Wyndham Defendants
filed an answer and asserted the affirmative defense of
lack of personal jurisdiction. Consequently, the issue of
personal jurisdiction was identified in the initial stages of
the litigation and thereafter that defense was not waived
by any defendant.
B. 	Personal Jurisdiction
The question of personal jurisdiction involves a mixed
question of law and fact. Rippon v. Smigel, 449 N.J. Super.
344, 359, 158 A.3d 23 (App. Div. 2017) (citing Citibank,
N.A. v. Estate of Simpson, 290 N.J. Super. 519, 532, 676
A.2d 172 (App. Div. 1996)). We will not disturb a trial
court’s factual findings concerning jurisdiction if they are
supported by substantial credible evidence. Id. at 358. We
review de novo the legal aspects of personal jurisdiction.
Ibid. (citing Mastondrea v. Occidental Hotels Mgmt. S.A.,
391 N.J. Super. 261, 268, 918 A.2d 27 (App. Div. 2007)).
Moreover, “[a] trial court’s interpretation of the law and
the legal consequences that flow from established facts
are not entitled to any special deference [on appeal].”
Manalapan Realty, L.P. v. Twp. Comm. of Manalapan,
140 N.J. 366, 378, 658 A.2d 1230 (1995); see also State v.

16a
Appendix B
Hubbard, 222 N.J. 249, 263, 118 A.3d 314 (2015) (citing
State v. Gandhi, 201 N.J. 161, 176, 989 A.2d 256 (2010)).
New Jersey courts “may exercise in personam
jurisdiction over a non-resident defendant ‹consistent with
due process of law.’” Bayway Refining Co. v. State Utils.,
Inc., 333 N.J. Super. 420, 428, 755 A.2d 1204 (App. Div.
2000) (alterations in original omitted) (quoting R. 4:4-4(b)
(1)). Our courts exercise jurisdiction over nonresident
defendants “to the uttermost limits permitted by the
United States Constitution.” Avdel Corp. v. Mecure, 58
N.J. 264, 268, 277 A.2d 207 (1971); Jardim v. Overley, 461
N.J. Super. 367, 377, 221 A.3d 593 (App. Div. 2019).
A two-part test governs the analysis of personal
jurisdiction: (1) defendant must have “certain minimum
contacts” with the forum state, and (2) maintaining the suit
in that state cannot offend “traditional notions of fair play
and substantial justice.” Int’l Shoe Co. v. Washington, 326
U.S. 310, 316, 66 S. Ct. 154, 90 L. Ed. 95 (1945) (quoting
Milliken v. Meyer, 311 U.S. 457, 463, 61 S. Ct. 339, 85 L.
Ed. 278 (1940)). “[T]he requisite quality and quantum
of contacts is dependent on whether general or specific
jurisdiction is asserted . . . .” Citibank, N.A., 290 N.J.
Super. at 526.
General jurisdiction exists when the plaintiff’s claims
arise out of the defendant’s “continuous and systematic”
contacts with the forum state. Helicopteros Nacionales de
Columbia, S.A. v. Hall, 466 U.S. 408, 416 (1984); Baanyan
Software Servs., Inc. v. Kuncha, 433 N.J. Super. 466, 474,
81 A.3d 672 (App. Div. 2013). For general jurisdiction to

17a
Appendix B
attach, a defendant’s activities must be “so continuous
and systematic as to render [it] essentially at home in
the forum State.” FDASmart, Inc. v. Dishman Pharm.
& Chems., Ltd., 448 N.J. Super. 195, 202, 152 A.3d 948
(App. Div. 2016) (alteration in original) (citation omitted)
(quoting Daimler AG v. Bauman, 571 U.S. 117, 127, 134
S. Ct. 746, 187 L. Ed. 2d 624 (2014)).
Specific jurisdiction is available when the “cause of
action arises directly out of defendant’s contacts with the
forum state . . . .” Waste Mgmt., Inc. v. Admiral Ins. Co.,
138 N.J. 106, 119, 649 A.2d 379 (1994), cert. denied, 513
U.S. 1183 (1995). In examining specific jurisdiction, the
“minimum contacts inquiry must focus on ‹the relationship
among the defendant, the forum, and the litigation.’” Lebel
v. Everglades Marina, Inc., 115 N.J. 317, 323, 558 A.2d
1252 (1989) (quoting Shaffer v. Heitner, 433 U.S. 186, 204,
97 S. Ct. 2569, 53 L. Ed. 2d 683 (1977)). The minimum
contacts requirement is satisfied if “the contacts resulted
from the defendant’s purposeful conduct and not the
unilateral activities of the plaintiff.” Ibid. (citing WorldWide Volkswagen Corp. v. Woodson, 444 U.S. 286, 297-98,
100 S. Ct. 559, 62 L. Ed. 2d 490 (1980)). “In determining
whether the defendant’s contacts are purposeful, a court
must examine the defendant’s ‘conduct and connection’
with the forum state and determine whether the defendant
should ‘reasonably anticipate being haled into court
[in the forum state].’” Bayway Refining Co., 333 N.J.
Super. at 429 (alteration in original) (quoting World-Wide
Volkswagen Corp., 444 U.S. at 297).

18a
Appendix B
We apply the well-established standards for personal
jurisdiction to the three different types of defendants
sued by plaintiff: (1) the Emerald Grande Defendants;
(2) Wyndham Vacation; and (3) the other Wyndham
Defendants. We distinguish Wyndham Vacation from
the other Wyndham entities because only Wyndham
Vacation had agreements with, and any direct relation
to, the Resort.
1. 	The Emerald Grande Defendants
As already summarized, the Emerald Grande
Defendants are all Florida companies with their principal
place of business in Florida. Those defendants developed
and managed the Resort, which is located in Florida.
The Emerald Grande Defendants are not registered
to do business in New Jersey and have no employees
or physical facilities in New Jersey. Consequently, the
Emerald Grande Defendants are not subject to general
jurisdiction in New Jersey.
Furthermore, those defendants are not subject to
specific jurisdiction in New Jersey for plaintiff’s injuries.
Plaintiff was injured at the Resort in Florida. There is
no evidence that the Emerald Grande Defendants had
any contact with plaintiff or solicited him to come to
the Resort. Indeed, in discovery plaintiff acknowledged
that he was not staying at the Resort and had no contact
with the Resort before visiting as a guest of other people
attending the wedding.

19a
Appendix B
2.

Wyndham Vacation

Wyndham Vacation is a Delaware corporation with its
principal operations in Florida. It operates worldwide in
developing and marketing vacation ownership interests to
individual consumers. It has relationships with over 200
resorts and over 800,000 owners of vacation ownership
interests. Accordingly, Wyndham Vacation is registered
to and does business in New Jersey. Moreover, it has over
twenty employees in New Jersey.
Those connections to New Jersey, however, do not
establish general jurisdiction over Wyndham Vacation in
New Jersey. Wyndham Vacation does not have the type
of “continuous and systematic” contact with New Jersey
that would make it “at home” in New Jersey. The resorts
that Wyndham Vacations owns or deals with are located
in numerous states and foreign countries. Nevertheless,
Wyndham Vacation is not at home in all those multiple
jurisdictions. Instead, it is principally a Delaware
corporation doing business in Florida. See BNSF Railway
Co. v. Tyrell, U.S.    , 137 S. Ct. 1549, 1559, 198 L. Ed.
2d 36 (2017); Dutch Run-Mays Draft, LLC v. Wolf Block,
LLP, 450 N.J. Super. 590, 608, 164 A.3d 435 (App. Div.
2017) (holding that registration to do business in New
Jersey does not constitute consent to submit to the general
jurisdiction of courts in this state).
Wyndham Vacation also is not subject to specific
jurisdiction in New Jersey in relationship to plaintiff’s
accident. Its connections to New Jersey are entirely
unrelated to plaintiff’s accident. Plaintiff did not book a

20a
Appendix B
room at the Resort through Wyndham Vacation. Indeed,
as already pointed out, plaintiff did not have a room at the
Resort. Furthermore, there is no evidence that plaintiff
went to the Resort because of any action or solicitation
by Wyndham Vacation.
The undisputed facts established in discovery are
that plaintiff visited the Resort as a guest of other people
who were staying at the Resort. At approximately 2 a.m.,
plaintiff decided to dive into the pool. He unfortunately
suffered a debilitating injury when he struck his head on
the bottom of the pool. Wyndham Vacation, however, did
not bring plaintiff to the resort or cause him to dive into
the pool.
3. 	The Other Wyndham Defendants
We need not address whether the other Wyndham
Defendants are subject to personal jurisdiction in New
Jersey. Instead, we will analyze their lack of responsibility
under a duty analysis in subsection C of this opinion.
We recognize that the trial court dismissed the claims
against Wyndham Ownership on the basis of a lack of
personal jurisdiction in New Jersey. We agree with
that ruling. The record also establishes, moreover, that
Wyndham Ownership had no direct agreement, contract,
or relationship with the Resort. Thus, like the other
Wyndham entities, it is a distinct corporate entity from
Wyndham Vacation.

21a
Appendix B
C. 	The Other Wyndham Defendants Had No Duty to
Plaintiff
All of plaintiff’s claims are based on theories of
negligence. A plaintiff bears the burden of proving
negligence, which is never presumed. Khan v. Singh, 200
N.J. 82, 91, 975 A.2d 389 (2009). To establish a claim of
negligence, plaintiff must prove that: (1) defendants owed
him a duty of care; (2) defendants breached that duty; (3)
the breach was a proximate cause of his injury; and (4)
plaintiff sustained actual damages. Townsend v. Pierre,
221 N.J. 36, 51, 110 A.3d 52 (2015) (citing Polzo v. Cty.
of Essex, 196 N.J. 569, 584, 960 A.2d 375 (2008)). In that
regard, businesses owe invitees “a duty of reasonable
or due care to provide a safe environment for doing that
which is within the scope of the invitation.” Nisivoccia v.
Glass Gardens, Inc., 175 N.J. 559, 563, 818 A.2d 314 (2003)
(citing Hopkins v. Fox & Lazo Realtors, 132 N.J. 426,
433, 625 A.2d 1110 (1993)). That duty “requires a business
owner to discover and eliminate dangerous conditions” as
well as “maintain the premises in safe condition.” Ibid.
(citing O’Shea v. K. Mart Corp., 304 N.J. Super. 489, 49293, 701 A.2d 475 (App. Div. 1997)).
The material facts established that none of the other
Wyndham Defendants had agreements or relationships
with the Resort. None of those defendants owned,
operated, or had any control over the operations or
management of the Resort, or its pool. Consequently, there
is no basis for imposing a legal duty on any of the other
Wyndham Defendants for injuries plaintiff sustained when
he dove into the pool at the Resort. Accordingly, we affirm

22a
Appendix B
the trial court’s order dismissing the claims against the
Wyndham Defendants.
1. 	Plaintif f ’s Contentions Rega rding the
Responsibility of the Wyndham Defendants
Plaintiff argues that the relationship among the
Wyndham Defendants is such that they essentially should
be treated as closely related entities and should be subject
to general or specific jurisdiction because Wyndham
Worldwide has its principal place of business in New
Jersey. We reject this argument.
In essence, plaintiff argues for an alter ego theory of
jurisdiction that would effectively pierce the corporate
veils of the various Wyndham companies. “We have held
that the ‘forum contacts of a subsidiary corporation will
not be imputed to a parent corporation for jurisdictional
purposes without a showing of something more than mere
ownership.’” FDASmart, 448 N.J. Super. at 203 (quoting
Pfundstein v. Omnicom Grp. Inc, 285 N.J. Super. 245, 252,
666 A.2d 1013 (App. Div. 1995)). To pierce the corporate
veil of a parent corporation a party must establish two
elements: (1) the subsidiary was dominated by the parent
corporation, and (2) adherence to the fiction of a separate
corporate existence would perpetrate a fraud or injustice,
or otherwise circumvent the law. Id. at 204 (citing State
Dept. of Envtl. Prot. v. Ventron Corp., 94 N.J. 473, 500-01,
468 A.2d 150 (1983)).
Here, the record contains no evidence that supports
piercing the corporate veils among the Wyndham

23a
Appendix B
Defendants or otherwise imposing some form of alter ego
responsibility among the separate Wyndham Defendants.
Plaintiff places particular reliance on two Wyndham
trusts, Club Wyndham Access (CWA) and Club Wyndham
Plus (CWP). Plaintiff then argues that through those
trusts Wyndham Vacation and the other Wyndham
Defendants exercised significant control over the Resort.
At best, the trusts supported Wyndham Vacation’s efforts
to market rooms at the Resort. Their activities did not
create specific jurisdiction over Wyndham Vacation.
Moreover, the activities of CWA or CWP did not create
a basis for imposing alter ego responsibility on the other
Wyndham Defendants. In that regard, plaintiff made no
showing that there was anything illegal or fraudulent in
the corporate structure of the Wyndham Defendants or
the operations of CWA and CWP. 5
We also reject plaintiff’s arguments that because the
Wyndham Defendants use related websites, we should
not treat them as separate corporations. Integrated
websites, and even communications via the internet in
New Jersey, do not by themselves establish sufficient
contacts to subject a defendant to personal jurisdiction
in New Jersey. See Jardim, 461 N.J. Super. at 381. The
Wyndham Defendants’ websites are insufficient contacts
for creating either general or specific jurisdiction.

5. The parties dispute whether CWA and CWP are New
Jersey based trusts. We do not deem that issue to be material to
the question of personal jurisdiction.

24a
Appendix B
D. 	Discovery
Finally, plaintiff argues that the trial court erred by
not permitting him to take certain additional discovery.
Specifically, he contends that he should have been
permitted to take three additional depositions: the Chief
Executive Officer (CEO) of Wyndham Vacation, the CEO
of Wyndham Worldwide, and the officer who signed
the sale and affiliation agreement between Wyndham
Vacation and the Resort. He also asserts that the Emerald
Grande Defendants should have been compelled to
produce additional documents and materials, including
a PowerPoint webinar on how to respond to reviews on
TripAdvisor.
We review discovery orders for abuses of discretion.
See Estate of Lagano v. Bergen Cty. Prosecutor’s Office,
454 N.J. Super. 59, 80, 184 A.3d 126 (App. Div. 2018). Here,
we discern no abuse. The record establishes that plaintiff
was permitted to take discovery and that discovery
was open for several years. During that time, plaintiff
engaged in significant discovery including taking multiple
depositions and receiving responses to comprehensive
document demands, interrogatories, and requests for
admissions. The discovery that plaintiff now seeks is
discovery that he sought just before or after the close of
discovery.
Plaintiff argues that the additional discovery he sought
may have provided relevant information on the question of
personal jurisdiction. Plaintiff, however, has not identified
the factual basis to suggest that additional discovery

25a
Appendix B
would have been relevant to personal jurisdiction. The
material facts concerning the places of incorporation
and the business operations of all the defendants were
established in discovery. None of that discovery gave rise
to a legitimate argument that the Wyndham Defendants
operated as one economic entity and should be treated
as one entity for purposes of personal jurisdiction.
Consequently, we discern no basis to reverse any of the
discovery orders plaintiff challenges on this appeal.
To the extent not addressed, plaintiff ’s other
arguments lack sufficient merit to warrant discussion in
a written opinion. R. 2:11-3(e)(1)(E).
III.
In their separate appeal, the Emerald Grande
Defendant’s challenge the order denying their motion for
sanctions under N.J.S.A. 2A:15-59.1 and Rule 1:4-8. We
review a trial court’s decision on an application for fees or
sanctions under an abuse of discretion standard. United
Hearts v. Zahabian, 407 N.J. Super. 379, 390, 971 A.2d
434 (App. Div. 2009) (citing Masone v. Levine, 382 N.J.
Super. 181, 193, 887 A.2d 1191 (App. Div. 2005)).
N.J.S.A. 2A:15-59.1 provides that a prevailing party
in a civil action may be awarded reasonable costs and
attorney’s fees if the court finds that the complaint or
defense of the non-prevailing party was frivolous. To
be considered frivolous, the filing must be found to
have been made in “bad faith, solely for the purpose of
harassment, delay or malicious injury,» or made «without

26a
Appendix B
any reasonable basis in law or equity and could not be
supported by a good faith argument for an extension,
modification or reversal of existing law.” N.J.S.A. 2A:1559.1(b).
Rule 1:4-8(b) provides that a party may make a motion
for sanctions against an attorney or pro se party that has
filed a paper with a court for a frivolous purpose. The
rule goes on to provide certain procedures that must be
followed to qualify. The rule also imposes limitations on the
amount that can be imposed as a sanction. R. 1:4-8(b), (d).
The conduct warranting sanctions under Rule 1:4-8 or fees
under N.J.S.A. 2A:15-59.1 has been strictly construed and
narrowly applied. McKeown-Brand v. Trump Castle Hotel
& Casino, 132 N.J. 546, 561, 626 A.2d 425 (1993); Tagayun
v. AmeriChoice of N.J., Inc., 446 N.J. Super. 570, 578-81,
144 A.3d 909 (App. Div. 2016) (holding that movants bear
the burden of proving bad faith and that honest attempts
to pursue “marginal” claims do not warrant sanctions);
Wyche v. Unsatisfied Claims & Judgment Fund of N.J.,
383 N.J. Super. 554, 560, 892 A.2d 761 (App. Div. 2006).
Here, we discern no abuse of discretion. In that
regard, the trial court found that the Emerald Grande
Defendants did not meet their burden to demonstrate
that plaintiff continued to litigate in bad faith after
jurisdictional discovery clarified the relationship among
the Emerald Grande and Wyndham Defendants. See
Tagayun, 446 N.J. Super. at 579-80. Although plaintiff’s
allegations were arguably “of marginal merit,” id. at 580
(quoting Iannone v. McHale, 245 N.J. Super. 17, 28, 583
A.2d 770 (1990)), they were not entirely “without any

27a
Appendix B
reasonable basis in law or equity.” N.J.S.A. 2A:15-59.1(b).
A review of the trial court’s findings does not establish that
it erred in evaluating the merits of plaintiff’s claims. See
United Hearts, 407 N.J. Super. at 390. Consequently, we
affirm the trial court’s denial of the request for sanctions.
Affirmed.

28a
Appendixof
C the SUPERIOR
Appendix C — ORDER
COURT OF NEW JERSEY LAW DIVISION,
BERGEN COUNTY, FILED JUNE 28, 2018
SUPERIOR COURT OF NEW JERSEY
LAW DIVISION
BERGEN COUNTY
DOCKET NO.: BER-L-9314-14
ANTON SHIFCHIK, ZHANNA SHIFCHIK,
SLAVA SHIFCHIK,
Plaintiffs,
v.
WYNDHAM WORLDWIDE CORPORATION, ITS
AGENTS, SERVANTS AND/OR EMPLOYEES,
WYNDHAM WORLDWIDE OPERATIONS, INC.,
ITS AGENTS, SERVANTS AND/OR EMPLOYEES,
WYNDHAM HOTEL GROUP, LLC, ITS AGENTS,
SERVANTS AND/OR EMPLOYEES, WYNDHAM
HOTEL AND RESORTS, LLC, ITS AGENTS,
SERVANTS AND/OR EMPLOYEES, WYNDHAM
VACATION RESORTS, INC., ITS AGENTS,
SERVANTS AND/OR EMPLOYEES, WYNDHAM
VACATION OWNERSHIP, INC., ITS AGENTS,
SERVANTS AND/OR EMPLOYEES, EAST PASS
INVESTORS, LLC D/B/A THE EMERALD
GRANDE AND/OR HARBORWALK HOLDING, LLC
AND/OR EMERALD GRANDE AT HARBORWALK
VILLAGE, ITS AGENTS, SERVANTS AND/OR

29a
Appendix C
EMPLOYEES, EMERALD GRANDE, LLC, ITS
AGENTS, SERVANTS AND/OR EMPLOYEES, “XYZ
MAINTENANCE COMPANY 1-10”, ITS AGENTS,
SERVANTS AND/OR EMPLOYEES, “LMN POOL
COMPANY 1-10”, ITS AGENTS, SERVANTS AND/
OR EMPLOYEES, “ABC CORPORATION 1-10”, ITS
AGENTS, SERVANTS AND/OR EMPLOYEES, “EFG
CORPORATION 1-10”, ITS AGENTS, SERVANTS
AND/OR EMPLOYEES (THE LAST BEING
FICTITIOUS DESIGNATIONS),
Defendants.
ORDER
This matter having been opened to the Court by
Porzio, Bromberg & Newman, P.C., and Gass Weber
Mullins LLC, attorneys for Defendants East Pass
Investors, LLC, Emerald Grande, LLC and Harborwalk
Holding, LLC (“Emerald Grande Defendants”), for
entry of an order of summary judgment dismissing the
claims against the Emerald Grande Defendants for lack
of personal jurisdiction; and the Court having reviewed
the moving papers and opposition thereto, if any; and the
Court having heard oral argument; and good cause having
been shown,
IT IS on this 28th day of June, 2018,
ORDERED that the Emerald Grande Defendants’
motion to dismiss Plaintiffs’ complaint for lack of personal
jurisdiction is hereby GRANTED*; and it is further

30a
Appendix C
ORDERED that Plaintiffs’ Complaint is dismissed
against the Emerald Grande Defendants w ithout
prejudice*; and it is further
ORDERED that a copy of the Order shall be served
upon all counsel of record and/or parties in this action
within 7 days from the date of entry who do not have
e-courts access. E-court uploading is service
/s/					
WALTER F. SKROD, J.S.C.

31a
Appendix C
Shifchik v. Wyndham Worldwide Corp, et als.
L-9314-14
Rider to order dated 6/28/18
The defendants Harborwalk Holding, LLC, East Pass
Investors, LLC, and Emerald Grande, LLC (collectively,
the “Emerald Grande defendants”) filed this motion to
dismiss for lack of personal jurisdiction. The plaintiffs
Anton Shifchik, Zhanna Shifchik, and Slava Shifchik
(collectively, the “plaintiffs”) opposed, and the Emerald
Grande defendants replied.
Harborwalk Holding, LLC (“Harborwalk Holding”),
East Pass Investors, LLC (“East Pass Investors”), and
Emerald Grande, LLC are limited liability companies
formed under the laws of the state of Florida. Harborwalk
Holding owns and operates the Emerald Grande resort.
East Pass Investors controls the hotel and restaurant
operations at the Emerald Grande resort. Harborwalk
Holding is the sole member and manager of East Pass
Investors. Emerald Grande, LLC is the developer of the
Emerald Grande resort. Harborwalk Holding is also the
sole member and manager of Emerald Grande, LLC.
A cross-motion to dismiss was filed by co-defendants
Wyndham Worldwide Corporation (“WWC”), Wyndham
Worldwide Operations, Inc. (“WWO”), Wyndham Hotel
Group, LLC (“WHG”), Wyndham Hotel and Resorts, LLC
(“WRG”), Wyndham Vacation Resorts, Inc. (“WHR”), and
Wyndham Vacation Ownership, Inc. (“WVO”) (collectively,
the “Wyndham defendants”). WVR and WVO, like the
Emerald Grande defendants, allege a lack of personal

32a
Appendix C
jurisdiction. The other four Wyndham defendants allege
that the plaintiffs fail to offer prima facie evidence of
liability.
New Jersey courts may exercise personal jurisdiction
over a non-resident defendant “consistent with due process
of law.” R. 4:4-4(b)(l); Bayway Ref. Co. v. State Utils.,
Inc., 333 N.J. Super. 420, 428 (App. Div.), certif. denied,
165 N.J. 605 (2000). New Jersey’s long arm jurisdiction
extends “to the uttermost limits permitted by the United
States Constitution.” Avdel Corp. v. Mecure, 58 N.J. 264,
268 (1971).
A two-part test has consistently been applied in
determining the extent to which courts can assert
personal jurisdiction over out-of-state residents. Baanyan
Software Services, Inc. v. Kuncha, 433 N.J. Super. 466,
473 (App. Div. 2013). First, “due process requires only
that in order to subject a defendant to a judgment in
personam, if he be not present within the territory of
the forum, he have certain minimum contacts with it.”
Ibid. Second, the minimum contacts must be of a nature
and extent “such that the maintenance of the suit does
not offend ‘traditional notions of fair play and substantial
justice.”’ Id. at 473-74. When a defendant asserts lack
of personal jurisdiction, “the plaintiff bears the burden
of demonstrating that the defendant’s contacts with the
forum state are sufficient to confer personal jurisdiction
on the court.” Jacobs v. Walt Disney World, Co., 309 N.J.
Super. 443, 454 (App. Div. 1998).

33a
Appendix C
A court’s personal jurisdiction may arise over a
defendant in one of two ways, referred to as general and
specific jurisdiction.
A corporation may be subject to “general” personal
jurisdiction in a forum where it is incorporated or has
its principal place of business. Goodyear Dunlop Tires
Operations, S.A. v. Brown, 564 U.S. 915, 924 (2011). In
this case, each of the Emerald Grande defendants were
incorporated in Florida, with their principal place of
business in Florida – Florida is the “paradigm forum”
for the Emerald Grande defendants. Ibid. However,
the exercise of general jurisdiction is not limited to the
paradigm forum.
General jurisdiction also exists where the foreign
corporation’s operation in another forum (NJ) are so
“continuous and systematic” as to render each essentially
“at home” in this state. Id. at 919. This standard of
establishing general jurisdiction “is a difficult one to meet,
requiring extensive contacts between a defendant and a
forum.” Mische v. Bracey’s Supermarket, 420 N.J. Super.
487, 492 (App. Div. 2011).
The Emerald Grande defendants state that all of
its employees work in Florida, have never worked in
New Jersey, nor been sent to New Jersey for a business
purpose. The Emerald Grande defendants state that they
have never maintained an office space in New Jersey. The
Emerald Grande defendants state that they have never
maintained a telephone listing or mailing address in New
Jersey and own no property in New Jersey. The Emerald

34a
Appendix C
Grande defendants state that their files are stored in
Florida. The plaintiffs did not present any evidence that
contradict these statements made by the Emerald Grande
defendants.
However the plaintiffs maintain that personal
jurisdiction exists based on the Emerald Grande
defendants’ connections w ith various New Jersey
businesses: re:think, RCI, Mike Kogan Consulting, ADP,
and KHS & S Contractors. Plaintiffs allege that re:think (a
New Jersey business) was hired to “take care of all phases
of its [Emerald Grande resort] internet marketing.” The
Emerald Grande defendants state that re:think was hired
to help develop the website for the Emerald Grande resort,
the work was limited to website development assistance,
and that John Hall, General Manager of Harborwalk
Village, LLC, maintained the website after its launch.
Plaintiffs allege that the Emerald Grande defendants do
business with RCI (a New Jersey business), a company
that exchanges timeshares at the Emerald Grande
resort, and offers “the world’s largest vacation exchange
network and provides unrivaled products and services to
enhance the vacation ownership experience.” Yet plaintiffs
have not offered sufficient facts to show the extent of
RCI’s New Jersey business with the Emerald Grande
defendants, and/or that RCI was hired by the Emerald
Grande defendants to specifically target and/or market
to New Jersey residents. Plaintiffs further allege that
Mike Kogan Consulting (a New Jersey business) painted
the outside of the Emerald Grande resort; also, that the
Emerald Grande defendants handle their payroll and
retirement plans through ADP (a New Jersey business).

35a
Appendix C
Additionally, plaintiffs assert that KHS & S Contractors
is located in New Jersey and lists the Emerald Grande
resort as a customer on the KHS & S website. However
discovery reveals KHS & S Contractors is incorporated
in Florida with its headquarters in Tampa, Florida. KHS
& S Contractors has one location in New Jersey. Even if
these “contacts” could be described as “continuous,” which
one or more might not be, they are not “substantial” and
could not be said to “approximate physical presence” (by
the Emerald Grande defendants) in New Jersey. Wilson
v. Paradise Village Beach Resort & Spa, 395 N.J. Super.
520, 528 (App. Div. 2007) (citing Bancroft & Masters, Inc.
v. Augusta Nat’l Inc., 223 F.3d 1082, 1086 (9th Cir. 2000)).
Plaintiffs also argue that personal jurisdiction can
be asserted over the Emerald Grande defendants by
the online advertising and marketing of the resort to
New Jersey residents, and through the Emerald Grande
resort’s presence on the Wyndham website, hosted by
the Wyndham Worldwide Corporation, LLC (“WWC”)
defendant, a New Jersey business. The Emerald Grande
resort’s general advertising is not sufficient to establish
general jurisdiction under Wilson. 395 N.J. Super. at
531. Plaintiffs have not shown that the Emerald Grande
defendants target “New Jersey for advertising, the extent
of advertising in New Jersey, or the amount of patronage
this advertising produces.” Id. at 531-32. Also, “the mere
accessibility of a foreign business’s website through
which customers may obtain information and place orders
is an insufficient contact by itself to support general
jurisdiction.” Id. at 532. These activities do not establish
that the Emerald Grande defendants are so heavily
engaged in New Jersey as to render it essentially at home

36a
Appendix C
in this state. Collins v. Sandals Resort Int’l, Ltd., No.
A-0924-16T4 (App. Div. Feb. 12, 2018) (defendant foreign
resort not “at home” in New Jersey where the resort was
affiliated with New Jersey travel agents, and the resort
was generally advertised on New Jersey websites).
Plaintiffs’ main argument for personal jurisdiction
rests on an alleged “partnership” and/or “co-ownership” of
the Florida resort, where the accident occurred, between
the Emerald Grande defendants and the Wyndham
defendants. Plaintiffs rely on Star Video Entertainment,
L.P. v. Video USA Associates 1 L.P., 253 N.J. Super.
216 (App. Div. 1992), to argue that jurisdiction over one
partner confers jurisdiction on the other. Plaintiffs contend
a “partnership” exists, because Wyndham Vacation
Resorts, Inc. (“WVR” – a Delaware corporation with a
principal place of business in Florida) allegedly owns 41%
of the timeshares at the Emerald Grande resort, and also
own eight (8) units in fee simple, called the Captain’s Court
Condominium Association (“Captain’s Court”). WVR owns
the Captain’s Court, and representatives of WVR sits on
three of the four homeowner’s associations at the Emerald
Grande resort. WVR contributes a share of expense for
the pool budget. WVR pays maintenance fees, which
go towards the pool budget and towards the security of
the resort. WVR also entered into a Sales & Marketing
Agreement with Emerald Grande, LLC whereby Emerald
Grande, LLC agreed to convey ownership shares in
certain individual condominium units in the Emerald
Grande resort to a trust and engage WVR to market
and sell the interests through the Club Wyndham Access
program. Furthermore, plaintiffs assert that W VR

37a
Appendix C
has control over the Emerald Grande resort by virtue
of a contract between Emerald Grande, LLC, WVR,
Emerald Grande East Condominium Association, Inc.
(a Florida corporation), and Fairshare Vacation Owners
Association (an Arkansas corporation). That contract
- the Club Wyndham Plus Affiliation Agreement (the
“affiliation agreement”) - requires the Emerald Grande
resort to meet certain standards or be subject to losing its
designation as a Club Wyndham affiliated resort. Through
the affiliation agreement, WVR inspects the Emerald
Grande resort twice a year, including the pool.
Plaintiffs’ reading of Star Video is misplaced. That
Appellate Division panel noted the special relationship
between limited partnerships, and stated that jurisdiction
may be predicated on an alter ego theory, where the
plaintiff demonstrates the entities’ common ownership,
one entity’s financial dependence, the other’s domination/
control, or either’s failure to observe corporate formalities.
Id. at 225. At oral argument, plaintiffs admitted that
an alter ego theory does not apply in this case. Also,
plaintiffs do not offer any facts to show that either entity
was financially dependent on the other or that one either
exercises dominance over or abuses the other. No evidence
demonstrates that WVR shares in the profits and/or losses
of any of the Emerald Grande defendants. WVR’s alleged
“control” pursuant to the affiliation agreement is illusory.
If the Emerald Grande resort fails to meet the standards
under the affiliation agreement, the consequence is that
its agreement with WVR is terminated. The Emerald
Grande resort would continue to operate, under Emerald’s
control, just without the “Wyndham” name association.
Furthermore, whether Emerald, or WVR, or both, has

38a
Appendix C
a duty to maintain the pool, or exercises control over the
pool, is irrelevant on the jurisdictional issue presented.
The fact that a defendant would be liable if personal
jurisdiction over it could be obtained is irrelevant to the
question of whether such jurisdiction can be exercised.
Witt v. Scully, 539 F.2d 950 (3d Cir. 1976).
Plaintiffs further assert that several employees
of the Emerald Grande defendants and the Wyndham
defendants have referred to the relationship between
the entities as a “partnership.” Extrinsic evidence of one
party’s alleged contractual intent is not admissible to
alter or contradict the express and unambiguous terms
of a written agreement. Saul v. Midlantic Nat’l Bank/
South, 240 N.J. Super. 62, 77 (App. Div. 1990). The Sales &
Marketing Agreement provides that it does not create “any
agency, partnership, joint venture relationship or other
arrangement” between Emerald Grande, LLC and WVR.
There is no partnership according to the unambiguous
terms of the agreement, including any analysis of postcontractual activity. The fact that Emerald Grande, LLC
is a party to the Sales & Marketing Agreement and the
Club Wyndham Plus Program Affiliation Agreement is
not the kind of “continuous and systematic” contact with
New Jersey that renders the Emerald Grande, LLC “at
home” in New Jersey.
Plaintiffs further argue Boe v. EFCA, BER-L-8839-12
(Mar. 1, 2017), establishes the Emerald Grande defendants
are subject to general jurisdiction in New Jersey. In Boe,
the Honorable John J. Langan, J.S.C., found this court
had general jurisdiction over the foreign defendant,

39a
Appendix C
because among the many factors, the foreign defendant
has twenty-eight (28) member churches in New Jersey,
recommends each member of the church donate 1% of
its budget to them, directly solicits money from New
Jersey residents and churches by sending pamphlets
and brochures seeking donations, calling pastors of New
Jersey member churches seeking donations, has the power
to remove New Jersey churches from its membership, and
the authority to hire and terminate pastors from New
Jersey member churches. Id. at 37-38. Boe is far from
the facts of the current case. Here, the Emerald Grande
defendants work with a few New Jersey businesses, but
plaintiffs fail to offer any facts to show that the Emerald
Grande defendants directly solicit business from, and/
or market to, New Jersey residents. Additionally, the
Emerald Grande defendants have no control or authority
over the four Wyndham defendant entities based in New
Jersey.
Plaintiffs maintain that NJ based defendant WWC
has a relationship with defendant Emerald Grande
through WWC’s Delaware subsidiary WVO and WVO’s
Delaware subsidiary W VR (the two non-NJ based
Wyndham defendants), and the Club Wyndham Plus
trust (non-defendant alleged by plaintiffs to be in NJ)
and Club Wyndham Access trust (non-defendant alleged
by plaintiffs to be in NJ). Where multiple defendants
are named, “their individual contacts to the forum state
cannot be aggregated to find minimum contacts for a
single defendant.” Waste Management v. Admiral Ins.
Co., 138 N.J. 106, 127 (1994). The NJ contacts of WWC and
its foreign (to NJ) and in-state (NJ) subsidiaries cannot

40a
Appendix C
be aggregated to find New Jersey contacts for Emerald
Grande.
This court finds that the plaintiffs failed to show the
Emerald Grande defendants each have “continuous and
systematic” connections as to render them “at home” in
New Jersey to support a finding of general jurisdiction.
The court finds it has no general jurisdiction over
any of the three (3) Emerald Grande defendants. The
Emerald Grande LLC defendant has two (2) contacts
with WVR which do not sustain plaintiffs’ burden. The
Emerald Grande East Pass defendant and the Emerald
Grande Harbor Holdings defendant have no agreement
or connection with any Wyndham defendant and thus
plaintiffs’ burden is not sustained as to them.
To establish “specific” personal jurisdiction, plaintiffs
must show that the Emerald Grande defendants
had minimum contacts with New Jersey, defined as
“purposeful acts,” that make it reasonable for the
Emerald Grande defendants to “anticipate being haled
into court” here. Waste Management, 138 N.J. at 11920. When the defendant is not present in the forum
state, “it is essential that there be some act by which the
defendant purposefully avails [itself] of the privilege of
conducting activities within the forum state, thus invoking
the benefit and protection of its laws.” Id. at 120. This
“purposeful availment” requirement ensures that an
out-of-state defendant will not be haled into court based
on “random, fortuitous, or attenuated contacts or as a
result of the unilateral activity of some other party.” Id.
at 121. “There must be an affiliation between the forum

41a
Appendix C
(NJ) and the underlying controversy, principally, an
activity or an occurrence that takes place in the forum
(NJ). Bristol-Meyers Sguibb Co. v. Superior Court, 137
S. Ct. 1773, 1780 (2017). When there is no such connection,
specific jurisdiction is lacking regardless of the extent of
a defendant’s unconnected activities in the state (NJ). Id.
at 1781.
The Appellate Division in Baanyan declined to
confer personal jurisdiction where the foreign defendant
entered into a consulting agreement with the plaintiff, a
New Jersey corporation, but never lived or did business
in New Jersey. 433 N.J. Super. at 476-78. The Baanyan
court also recognized that payments the defendant
received from the New Jersey corporation did not support
a finding of personal jurisdiction “as this . ... did not
require any contact with New Jersey.” Id. at 478. In this
case Emerald Grande, LLC entered into the Sales &
Marketing Agreement with WVR, a Delaware corporation
(a subsidiary of WVO, another Delaware corporation,
which in turn is a subsidiary of WWO, a New Jersey
corporation). The “NJ’’ connection in this case is thus
more attenuated than the “NJ” connection in the Baanyan
matter. Even if Emerald Grande, LLC, or any of the other
Emerald Grande defendants, received payments from or
paid any New Jersey businesses, there is no evidence that
the transactions required any contact with New Jersey.
Even if the Emerald Grand LLC / WVR relationship were
considered to be a de facto partnership, and NJ properly
exercised jurisdiction over WVR (notwithstanding that
WVR is a Delaware corporation with a principal place
of business in Florida), New Jersey jurisdiction over

42a
Appendix C
Emerald Grande may not be based on the contacts of
WVR with New Jersey.
Plaintiffs allege that the Emerald Grande defendants
(and WVR) negligently operated, maintained, supervised,
or designed the pool and surrounding area at the Emerald
Florida resort. The alleged negligence did not happen in
New Jersey, and plaintiff was not injured in New Jersey.
See Collins, No. A-0924-16T4 (no specific jurisdiction
where consumption of contaminated food was prepared,
served and consumed in Turks and Caicos).
Plaintiffs also argue this court could exercise personal
jurisdiction over the Emerald Grande defendants, because
the wedding that plaintiff attended was between two New
Jersey residents (Rozenbaums) who found the resort
online while in their home in New Jersey. The advertising
and other marketing activities in New Jersey by a hotel
or resort located in another state or country may be
sufficient to establish specific jurisdiction over a claim by
a New Jersey resident who is enticed by that marketing
activity to go to the hotel or resort. Wilson, 395 N.J.
Super. at 531 (citing Mastondrea v. Occidental Hotels
Management S.A., 391 N.J. Super. 261 (App. Div. 2007))
(plaintiff would not have been present at the non-resident
hotel in the absence of the hotel’s advertisement in New
Jersey by a New Jersey business). Plaintiffs argue that
the Rozenbaums, not plaintiff, were the ones who found
the resort through a google search in their home in New
Jersey. Discovery revealed that the Rozenbaums lived
in New York when they selected the Emerald Grande’s
Florida resort for their wedding as a result of a Google

43a
Appendix C
search. Their selection was not as a result of the Emerald
Grand resort’s advertisement in New Jersey by WVR.
“Contacts with a state’s citizens that take place outside
the state are not purposeful contacts with the state itself.”
Collins, No. A-0924-16T4 (citing O’Connor v. Sandy Lane
Hotel Co., 496 F.3d 312, 317 (3d Cir. 2007)). Plaintiffs also
offer no evidence to show it was the Emerald Grande
resort NJ advertisement of RCI, a New Jersey business,
directed at New Jersey residents, which led to plaintiff’s
presence at the resort on the day of the injury. Plaintiff,
personally, was not directly enticed by the Emerald
Grande defendants’ marketing activities to go to the
resort. Plaintiff was merely a guest of the Rozenbaums,
registered guests, at the Emerald Grande resort. Thus
jurisdiction does not attach. See Wilson, 395 N.J. Super.
at 528 (no personal jurisdiction where plaintiff went to the
resort as a guest of her daughter, rather than as a result of
any advertising or other marketing activity by defendants
in New Jersey). It is irrelevant, even if true, that Todd
B. from Livingston, New Jersey was directly solicited
by an Emerald Grande resort employee, Mark Pzinski,
Director of Rooms Services, online through TripAdvisor
to go to the resort.
Plaintiffs do not offer any evidence tending to suggest
that the Wyndham website or any other website that
advertise the Emerald Grande resort is more than a “mere
inclusion of an advertisement in a publication.” Blessing v.
Prosser, 141 N.J. Super. 548, 550 (App. Div. 1976) (court
had personal jurisdiction where the advertisement was
substantially more than a solicitation of business, it was
enhanced by the affirmative endorsement and guarantee
of the “prestigious” American Automobile Association);

44a
Appendix C
Mastondrea, 391 N.J. Super. at 269-70 (court had personal
jurisdiction where the hotel advertisement was both in the
Star Ledger and television through a New Jersey business
seeking to attract New Jersey residents). Plaintiffs do
not mention any other advertisement and/or marketing
efforts specifically directed at the residents of the State
of New Jersey that directly enticed plaintiff to go to the
Emerald Grande resort.
This court will not give dispositive weight to the
Emerald Grande LLC’s connections with Club Wyndham
Plus and Club Wyndham Access, alleged New Jersey
trusts, to confer specific jurisdiction, because the injured
plaintiff was not enticed by any Wyndham entities to go to
the resort and was not a guest of a Wyndham unit owner.
Accordingly, this court does not have specific
jurisdiction over any of the three (3) Emerald Grande
defendants.
Plaintiffs also argue that dismissing the current
case would be seriously inconvenient to the plaintiff. The
inconvenience to plaintiff of litigating in another forum
does not justify the exercise of personal jurisdiction over
Florida entities that lack sufficient minimum contacts
with New Jersey. Goodyear, 564 U.S. at 929 (jurisdiction
to adjudicate has in practice never been based on the
plaintiffs relationship to the forum); see also BristolMyers, 137 S. Ct. at 1780-81.
In a proposed sur-reply, four weeks after oral
argument, and without leave of court, plaintiffs assert that

45a
Appendix C
the 2017 BNSF and Bristol-Meyers U.S. Supreme Court
cases represent a change in jurisdictional law, and these
cases should not be applied retroactively to the current
case. The court’s reading of those 2017 cases is that the
principles set forth therein affi1m established precedent
that a plaintiff cannot sue a defendant in a state court
jurisdiction that is unconnected to the defendant’s alleged
wrongful conduct and/or where the defendant is not “at
home.” Goodyear, 564 U.S. at 919; Daimler AG v. Bauman,
134 S. Ct. 746 (2014); Burger King Corp. v. Rudzewicz,
471 U.S. 462 (1985).
This court finds, that after a significant multi-year
period of jurisdictional discovery, the plaintiffs have
failed to satisfy their burden of demonstrating that the
Emerald Grande defendants’ contacts are sufficient for
this court to confer personal jurisdiction. The Emerald
Grande defendants’ motion to dismiss for lack of personal
jurisdiction is GRANTED, and the plaintiffs’ complaint is
dismissed without prejudice against each of the Emerald
Grande defendants.
The plaintiffs may refile their complaint in any
appropriate foreign jurisdiction, if such filing has not been
done already. This court does not offer any opinion on the
merits or non-merits of any future (or past) foreign filing.

46a
Appendixof
D the SUPERIOR
Appendix D — ORDER
COURT OF NEW JERSEY, LAW DIVISION,
BERGEN COUNTY, FILED JUNE 28, 2018
SUPERIOR COURT OF NEW JERSEY
LAW DIVISION — BERGEN COUNTY
DOCKET NO: BER-L-9314-14
ANTON SHIFCHIK, ZHANNA SHIFCHIK
and SLAVA SHIFCHIK,
Plaintiffs,
vs.
WYNDHAM WORLDWIDE CORPORATION, its
agents, servants and/or employees,
WYNDHAM WORLDWIDE OPERATIONS, INC.,
its agents, servants and/or employees,
WYNDHAM HOTEL GROUP, LLC, its agents,
servants and/or employees, WYNDHAM
HOTEL AND RESORTS, LLC, its agents,
servants and/or employees, WYNDHAM
VACATION RESORTS, INC., its agents,
servants and/or employees, WYNDHAM
VACATION OWNERSHIP, INC., its agents,
servants and/or employees, EAST PASS
INVESTORS, LLC d/b/a THE EMERALD
GRANDE and/or HARBORWALK HOLDING,
LLC and/or EMERALD GRANDE AT HARBOR
WALK VILLAGE, its agents, servants and/
or employees, EMERALD GRANDE, LLC, its

47a
Appendix D
agents, servants and/or employees, “XYZ
MAINTENANCE COMPANY 1-10”, its agents,
servants and/or employees, “LMN POOL
COMPANY 1-10”, its agents, servants and/
or employees, “ABC CORPORATION 1-10”, its
agents, servants and/or employees “EFG
CORPORATION 1-10”, its agents, servants
and/or employees (the last being
fictitious designations),
Defendants.
ORDER GRANTING CROSS-MOTION TO DISMISS
PLAINTIFFS’ COMPLAINT PURSUANT TO
RULES 4:6-2(b) AND (e)
THIS MATTER having been opened to the Court by
McElroy, Deutsch, Mulvaney & Carpenter, LLP, attorneys
for Defendants, Wyndham Worldwide Corporation,
Wyndham Worldw ide Operations, Inc., Wyndham
Hotel Group, LLC, Wyndham Hotel and Resorts, LLC,
Wyndham Vacation Resorts, Inc., and Wyndham Vacation
Ownership, Inc., by way of a Cross-Motion to Dismiss
Plaintiffs’ Complaint Pursuant to Rules 4:6-2(b) and (e);
and the Court having reviewed all of the papers submitted,
and for good cause having been shown;
IT IS on this 28th day of June, 2018,
ORDERED that the Motion of Defendants, Wyndham
Vacation Resorts, Inc., and Wyndham Vacation Ownership,
Inc., to dismiss Plaintiffs’ Complaint pursuant to Rule 4:6-

48a
Appendix D
2(b) for lack of personal jurisdiction is hereby granted*,
and it is further
ORDERED that Plaintiffs’ Complaint is hereby
dismissed without prejudice with respect to Wyndham
Vacation Resorts, Inc., and Wyndham Vacation Ownership,
Inc., and it is further
ORDERED that the Motion of Defendants, Wyndham
Worldwide Corporation, Wyndham Worldwide Operations,
Inc., Wyndham Hotel Group, LLC, and Wyndham Hotel
and Resorts, LLC, to dismiss Plaintiffs’ Complaint
pursuant to Rule 4:6-2(e) is hereby granted*; and it is
further
ORDERED that Plaintiffs’ Complaint is hereby
dismissed with prejudice as to Defendants, Wyndham
Worldwide Corporation, Wyndham Worldwide Operations,
Inc., Wyndham Hotel Group, LLC, and Wyndham Hotel
and Resorts, LLC.
/s/					
WALTER F. SKROD, J.S.C.
X

Opposed
Unopposed

49a
Appendix D
Shifchik v. Wyndham Worldwide Corp, et als.
L-9314-14
Rider to order dated 6/28/18
The defendants Wyndham Worldwide Corporation
(“ W WC”), Wyndham Worldw ide Operations, Inc.
(“W WO”), Wyndham Hotel Group, LLC (“WHG”),
Wyndham Hotel and Resorts, LLC (“WHR”), Wyndham
Vacation Resorts, Inc. (“WVR”), and Wyndham Vacation
Ownership, Inc. (“WVO”) (collectively, the “Wyndham
defendants”) filed a cross-motion to dismiss WVR and
WVO for lack of personal jurisdiction. The plaintiffs Anton
Shifchik, Zhanna Shifchik, and Slava Shifchik (collectively,
“plaintiffs”) opposed.
WVR and WVO are both corporations incorporated in
the State of Delaware, both having a principal place of
business in Florida. WVO is a wholly-owned subsidiary
of WWC. WVO is a worldwide timeshare business that
develops and markets vacation ownership interests
(“VOI”) to consumers and provide consumer financing in
the sale of VOIs. WVR is a wholly-owned subsidiary of
WVO that develops, markets, and sells VOIs.
The other Wyndham defendants, WWC, WWO, WHG,
and WHR are entities based in New Jersey and this
jurisdictional motion is not made on their behalf. These
four (4) Wyndham defendants argue that plaintiffs’ claims
should be dismissed against them because plaintiffs failed
to offer any evidence to show these Wyndham entities
have any connection to the Emerald Grande resort, the
Emerald Grand defendants, or the Sales & Marketing
agreement between WVR and Emerald Grande, LLC.

50a
Appendix D
New Jersey courts have determined that a parent
corporation’s contacts with the forum state (NJ) may
justify exercise of personal jurisdiction over its whollyowned non-resident subsidiary. Moon Carrier v. Reliance
Ins. Co., 153 N.J. Super. 312, 321 (App. Div. 1977); Genesis
Bio-Pharmaceuticals, Inc. v. Chiron Corp., 27 Fed. Appx.
94, 98 (3d Cir. 2002). The relevant jurisdictional inquiry
is whether the subsidiary and the parent so operate as
single entity, or unified and cohesive economic unit, that
when the parent is within venue of court, the subsidiary
is also within court’s jurisdiction. Moon Carrier, 153 N.J.
Super. at 321-22. This single entity test requires that a
parent over which the court has jurisdiction so control and
dominate a subsidiary as in effect to disregard the latter’s
independent corporate existence. Id. at 323.
In Genesis-Bio, defendant Chiron Corporation, a
California company, was a multi-national health care
company that did business within the forum state, New
Jersey. 27 Fed. Appx. at 98. Chiron Behring, a German
company, was a wholly-owned subsidiary of Chiron
Corporation. Ibid. The NJ court found it had personal
jurisdiction over Chiron Behring under the single entity
test, because Chiron had ultimate decision making power
with regard to all business decisions concerning Chiron
Behring and both shared the same legal counsel in this
litigation. Ibid.
Applying the single entity test, plaintiffs argue that NJ
based WWC, Delaware based WVR, and Delaware based
WVO so operate as a single entity, or cohesive economic
unit, such that NJ personal jurisdiction over WWC

51a
Appendix D
imputes NJ personal jurisdiction over WVR and WVO.
Like Genesis-Bio, plaintiffs assert that the Wyndham
defendants are represented by the same attorney, and
that Jennifer Giampietro, Esq., Group Vice President of
Legal at WWC, provides legal and financial services for
WVO and WVR from her New Jersey office. Plaintiffs
allege that WWC realizes all the profits and losses of
its subsidiaries, WVR and WVO. Plaintiffs also assert
that the CEO of WWC sits on the Board of Directors of
WVO and WVR to ensure the oversight of these entities.
Plaintiffs argue that NJ based WWO and NJ based WHR
further supports the “cohesiveness” of the Wyndham
entities, because WWO does payroll and perform other
financial services for WVO and WVR, and WHR licensed
the “Wyndham” name to WVR.
Plaintiffs provide no evidence of the financial connections
between W WC, W VR and W VO other than merely
asserting WWC realizes the profits and losses of WVR
and WVO. Without any additional material evidence, the
court cannot assess the level of WWC’s alleged control
over WVR and WVO.
This court observes that “[a] parent’s domination
or control of its subsidiary cannot be established by
overlapping board of directors.” Seltzer v. I.C. Optics,
Ltd., 339 F.Supp.2d 601, 610 (D.N.J. 2004) (citing United
States v. Bestfoods, 524 U.S. 51, 69 (1998) (“It is a wellestablished principle [of corporate law] that directors and
officers holding positions with a parent and its subsidiary
can and do ‘change hats’ to represent the two corporations
separately, despite their common ownership”)). Plaintiffs

52a
Appendix D
do not offer any evidence to show that the CEO of WWC
controls the decision making of WVR and WVO. Under
Seltzer and Bestfoods, the simple fact that the CEO sits
on the Board of WVO and WVR is insufficient to establish
WWC’s domination of WVO and WVR.
The court questions why WVR pays WHR for a license to
use the “Wyndham” name if the named Wyndham entities
so operate as a single entity. The mere facts that WWO
does payroll for WVO and WVR, and that Giampietro
provides legal and/or financial advice to WVO and WVR
are insufficient to demonstrate that WWC controls the
decision making power of WVR and WVO. WVR and WVO
operate in multiple states and foreign countries, and their
principal operations are based in Florida.
Accepting as true all of the facts identified by the
plaintiffs which detail the relationship between the
Wyndham defendants, plaintiffs fail to offer evidence
to show specifically how NJ corporation WWC controls
the business decision making power of its Delaware
corporation subsidiaries WVO and WVR. Genesis Bio,
27 Fed. Appx. at 98.
This court finds that plaintiffs failed to establish the
Wyndham defendants so operate as a single entity or
a cohesive economic unit to exercise (NJ) personal
jurisdiction over WVR and WVO. Plaintiffs failed to show
how WWC so dominates WVR and WVO as to obliterate
the latters’ independent corporate existence

53a
Appendix D
Finding that this court has no personal jurisdiction
based on the single entity test, this court must assess if
it can exercise personal jurisdiction over the WVR and
WVO defendants without reference to WWC, the parent
corporation.
A court’s personal jurisdiction may arise over a
defendant in one of two ways, referred to as specific and
general jurisdiction. When a defendant asserts lack of
personal jurisdiction, “the plaintiff bears the burden of
demonstrating that the defendant’s contacts with the
forum state are sufficient to confer personal jurisdiction
on the court.” Jacobs v. Walt Disney World, Co., 309 N.J.
Super. 443, 454 (App. Div. 1998).
A corporation may be subject to “general” personal
jurisdiction in a forum where it is incorporated or has
its principal place of business. Goodyear Dunlop Tires
Operations, S.A. v. Brown, 564 U.S. 915, 924 (2011).
WVR was incorporated in Delaware with its principal
place of business in Florida - not New Jersey. However,
the exercise of general jurisdiction is not limited to the
paradigm forum. Ibid.
General jurisdiction also exists where the foreign
corporation’s operation in another forum (NJ) are so
“continuous and systematic” as to render each essentially
“at home” in this state. Id. at 919. This standard of
establishing general jurisdiction “is a difficult one to meet,
requiring extensive contacts between a defendant and a
forum.” Mische, 420 N.J. Super. 487, 492 (App. Div. 2011).

54a
Appendix D
Plaintiffs allege jurisdiction is proper because of WVR’s
contacts with New Jersey. WVR manages a hotel in
Atlantic City, New Jersey, and has an accounting office in
New Jersey, with approximately twenty (20) employees.
However, “the general jurisdiction inquiry does not
focus solely on the magnitude of the defendant’s in-state
contacts.” BNSF Ry. V. Tynell, 137 S. Ct. 1549, 1559
(2017). Rather, the inquiry “calls for an appraisal of a
corporation’s activities in their entirety.” Ibid. In BNSF,
the Supreme Court found no general jurisdiction where
the defendant foreign railroad company’s in-state business
included over 2,000 miles of railroad tracks (6% of its total
tracks) and 2,000 employees (5% of its workforce). Id. at
1554. The Court explained that while the business the
railroad company does in Montana is sufficient to subject
the company to specific jurisdiction in Montana on claims
related to the business it does in Montana, an in-state
business does not suffice to permit the assertion of general
jurisdiction over the plaintiffs’ claims that are unrelated
to any activity occurring in Montana. Id. at 1559.
WVR allegedly operates, manages, and/or does business
with/as a hotel in Atlantic City, NJ. W VR has an
accounting office in Parsippany, New Jersey with twenty
(20) employees. Plaintiffs do not offer any other facts that
could further evaluate WVR’s corporate activities in its
entirety. WVR operates in multiple states and foreign
countries, and their principal operations are based in
Florida. WVR’s stated NJ hotel ownership/management
and accounting office operations are insufficient to convey
general jurisdiction. Plaintiffs have failed to carry
their burden on this issue as the court does not know

55a
Appendix D
what percentage of WVR’s total corporate holdings,
management responsibilities, and corporate employees
are in NJ.
Likewise, this court cannot assert general jurisdiction
over WVO under BNSF. WVO owns WVR. WVO was
incorporated in Delaware and has its principal place of
business in Florida. WVO is stated as the world’s largest
timeshare business based on the number of resorts, units,
owners, and revenues, with 221 resorts and over 878,000
owners. WVO operates in multiple states and foreign
countries, but its principal operations are based in Florida.
“[S]imply operating a business location within one state
for a national corporation is insufficient basis, in and of
itself, for the exercise of general jurisdiction.” Fairfax
Financial Holdings Ltd. v. S.A.C. Capital Management,
LLC, MRSL-2032-06 (N.J. Super. Mar. 29, 2018) (citing
Daimler AG v. Bauman, 134 S. Ct. 746, 762 n. 20 (2014)).
Other than WVO’s ownership of WVR, and WVO being
owned by its New Jersey parent company, WWC, plaintiffs
do not allege any other facts to show WVO is “at home”
in New Jersey. WVO’s alleged operations in New Jersey
are insufficient to convey general jurisdiction.
Plaintiffs further argue Boe v. EFCA, BER-L-8839-12
(Mar. 1, 2017) establishes the Wyndham defendants are
subject to general jurisdiction in New Jersey. In Boe, the
Honorable John J. Langan, J.S.C., found this court had
general jurisdiction over the foreign defendant, because
among the many factors, the foreign defendant has twentyeight (28) member churches in New Jersey, recommends
each member of the church donate 1% of its budget to

56a
Appendix D
them, directly solicits money from New Jersey residents
and churches by sending pamphlets and brochures
seeking donations, calling pastors of New Jersey member
churches seeking donations, has the power to remove New
Jersey churches from its membership, and the authority
to hire and terminate pastors from New Jersey member
churches. Id. 37-38. Boe is far from the facts of the current
case. Plaintiffs argue there are approximately twenty
(20) WVO employees who work in a sales office at the
Emerald Grande resort, WVO also has employees in New
Jersey, and WVO employees work for WVR. Plaintiffs
have not shown what, if any, businesses or activities WVO
owns, maintains, or conducts in the state of New Jersey.
There is no comparison of WVO’s New Jersey activity to
WVO’s entire worldwide activity. Likewise, there is no
comparison of WVR’s alleged ownership of a hotel and
operation of an office in New Jersey to its overall corporate
activities. Even if geographically, WVR and WVO have
activities in multiple states, such facts do not automatically
render WVR and WVO subject to the general personal
jurisdiction in each of those states. BNSF Ry v. Tyrrell,
137 S. Ct. at 1559 (“a corporation that operates in many
places can scarcely be deemed at home in all of them”).
Plaintiffs also argue that WVR has filed suit in New Jersey
and both WVR and WVO have been sued here. The mere
fact that there is/are (a) prior suit(s) is/are not germane
to this jurisdictional analysis, specifically because this
court does not know the circumstances surrounding that
(those) prior suit(s).

57a
Appendix D
This NJ court does not have general personal jurisdiction
over WVR and/or WVO.
To establish specific jurisdiction, plaintiffs must show that
WVR and WVO had minimum contacts with New Jersey,
defined as “purposeful acts,” that make it reasonable for
the Emerald Grande defendants to “anticipate being haled
into court” here. Waste Management v. Admiral Ins.
Co., 138 N.J. 106, 119-20 (1994). When the defendant is
not present in the forum state, “it is essential that there
be some act by which the defendant purposefully avails
[itself] of the privilege of conducting activities within the
forum state, thus invoking the benefit and protection of its
laws.” Id. at 120. This “purposeful availment” requirement
ensures that an out-of-state defendant will not be haled
into court based on “random, fortuitous, or attenuated
contacts or as a result of the unilateral activity of some
other party.” Id. at 121. “There must be an affiliation
between the forum (NJ) and the underlying controversy,
principally, an activity or an occurrence that takes place
in the forum (NJ). Bristol-Meyers Squibb Co. v. Superior
Court, 137 S. Ct. 1773, 1780 (2017). When there is no such
connection, specific jurisdiction is lacking regardless of
the extent of a defendant’s unconnected activities in the
state (NJ). Ibid.
From BNSF, WVR and WVO’s in-state business(es) in
New Jersey, if any, is/are sufficient to assert specific
jurisdiction if plaintiff’s injuries occurred as a result of
those activities in New Jersey. That is not the case here.
The alleged negligence in operating and maintaining
the resort’s pool occurred in Florida, and plaintiff

58a
Appendix D
was injured in Florida. Whatever business WVR and
WVO have in New Jersey did not give rise to plaintiffs
accident in Florida. When there is no such connection,
specific jurisdiction is lacking regardless of the extent
of a defendant’s unconnected activities in the state (NJ).
Bristol-Meyers, 137 S. Ct. at 1781 (no specific jurisdiction
in California where non-resident plaintiffs did not sustain
their injuries in California); see also Collins v. Sandals
Resort Int’l, Ltd., No. A-0924-16T4 (N.J. App. Div., Feb.
12, 2018) (no specific jurisdiction where consumption of
contaminated food was prepared, served and consumed
in Turks and Caicos).
Plaintiffs further argue the online reservation and/or
marketing of the Emerald Grande resort on the Wyndham
website, where a specific search for WVR and WVO would
lead someone directly to the Wyndham website which is
operated in New Jersey, is sufficient to exercise specific
jurisdiction. However specific jurisdiction requires WVR
and WVO’s alleged marketing and advertising in New
Jersey to have directly enticed plaintiff to go to the resort.
Wilson v. Paradise Village Beach Resort & Spa, 395 N.J.
Super. 520, 531 (App. Div. 2007) (citing Mastondrea v.
Occidental Hotels Management S.A., 391 N.J. Super. 261
(App. Div. 2007) (plaintiff would not have been present
at the non-resident hotel in the absence of the hotel’s
advertisement in New Jersey by a New Jersey business)).
The plaintiffs argue the Rozenbaums learned of the resort
through a google search in their home in New Jersey, but
discovery showed the Rozenbaums lived in New York when
they selected the resort for their wedding through a google
search. “Contacts with a state’s citizens that take place

59a
Appendix D
outside the state are not purposeful contacts with the state
itself.” Collins, No. A-0924-16T4 (citing O’Connor v. Sandy
Lane Hotel Co., 496 F.3d 312, 317 (3d Cir. 2007)). Plaintiff
was merely a guest of a registered guest (Rozenbaums) at
the Emerald Grande resort. See Wilson, 359 N.J. Super.
at 528 (no personal jurisdiction where plaintiff went to
the resort as a guest of her daughter, rather than as a
result of any advertising or other marketing activity by
defendants in New Jersey). It is irrelevant, even if true,
that Todd B. from Livingston, New Jersey was directly
solicited by an Emerald Grande resort employee, Mark
Pzinski, Director of Rooms Services, online through Trip
Advisor to go to the resort.
The fact that the Delaware incorporated and Floridabased WVR inspects the Emerald Grande resort property
twice a year, including the pool, has nothing to do with
plaintiffs injuries occurring in Florida and WVR’s alleged
negligence in Florida. Furthermore, even if it did, those
activities have nothing to do with the State of New Jersey.
Accordingly, this NJ court does not have specific
jurisdiction over WVR and WVO.
This court finds, that after a significant period of
jurisdictional discovery, the plaintiffs have failed to satisfy
their burden of demonstrating WVR and WVO’s contacts
with NJ are sufficient for this court to confer personal
jurisdiction. The motion to dismiss for lack of personal
jurisdiction is GRANTED as to WVR and WVO, and the
plaintiffs’ complaint is dismissed without prejudice against
WVR and WVO.

60a
Appendix D
The plaintiffs may refile their complaint against WVR
and WVO in any appropriate foreign jurisdiction, if such
filing has not been done already. This court does not offer
any opinion on the merits or non-merits of any future (or
past) foreign filing.
Finally, the court notes that while WWC, WWO, WHG, and
WHR concede there is New Jersey general jurisdiction as
to them, there are no ascertainable facts alleged which in
any way provide the court with a basis to impose a duty
on those entities in this case. Kelly v. Gwinnell, 96 N.J.
538, 544 (1984). Quite simply, those entities had nothing
to do with the accident, the cause of it, or the sales and
marketing agreement between WVR and Emerald Grande
LLC. Plaintiffs’ only basis for naming WHR and WWO as
defendants is that WHR licensed the “Wyndham” name
to WVR, and WWO does payroll and performs financial
services for WVO and WVR. Plaintiffs do not address in
what way WHG is involved in this litigation. The court
does not have any admissible, prima facie proof of these
four (4) entities’ potential responsibility.
WWC, WWO, WHG, and WHR’s motion for dismissal/
summary judgment is GRANTED, and plaintiffs’
complaint is dismissed with prejudice as to those
Wyndham entities.

61a
APPENDIX E — Appendix
DENIAL E
OF MOTION FOR
RECONSIDERATION OF THE SUPREME COURT
OF NEW JERSEY, FILED JANUARY 29, 2021
SUPREME COURT OF NEW JERSEY
M-618/619 September Term 2020, 084437
ANTON SHIFCHIK, ZHANNA SHIFCHIK,
AND SLAVA SHIFCHIK,
Plaintiffs-Movants,
v.
WYNDHAM WORLDWIDE CORPORATION, ITS
AGENTS, SERVANTS AND/OR EMPLOYEES,
EAST PASS INVESTORS, LLC, D/B/A THE
EMERALD GRANDE AND/OR HARBORWALK
HOLDING, LLC, AND/OR EMERALD GRANDE
LLC, AND ITS AGENTS, SERVANTS AND/OR
EMPLOYEES, et al.,
Defendants.
––––––––––––––––––––––––––––––
ANTON SHIKCHIK, ZHANNA SHIFCHIK,
AND SLAVA SHIFCHIK,
Plaintiffs,

62a
Appendix E
v.
WYNDHAM WORLDWIDE CORPORATION, ITS
AGENTS, SERVANTS AND/OR EMPLOYEES, et al.,
Defendants,
and
EAST PASS INVESTORS, LLC, D/B/A THE
EMERALD GRANDE AND/OR HARBORWALK
HOLDING, LLC, AND/OR EMERALD GRANDE
LLC, AND ITS AGENTS, SERVANTS AND/OR
EMPLOYEES, et al.,
Defendants.
January 26, 2021, Decided
January 29, 2021, Filed
Honorable Stuart Rabner, Chief Justice.
ORDER
It is ORDERED that the motion for leave to file a
motion for reconsideration as within time (M-618) is
granted; and it is further
ORDERED that the motion for reconsideration of
the Court’s order denying the petition for certification
(M-619) is denied.

63a
Appendix E
WITNESS, the Honorable Stuart Rabner, Chief
Justice, at Trenton, this 26th day of January, 2021.
/s/						
CLERK OF THE SUPREME COURT

